<html>
<title> - A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

                           Serial No. 116-23

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                      

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
37-869 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                                Witness

Hon. Kevin K. Mc Aleenan, Acting Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9

                             For the Record

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island:
  Email From Matthew Travis, Deputy Director, Cybersecurity and 
    Infrastructure Security Agency...............................    46
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................    62
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Letter From Russell T. Vought to Honorable Michael R. Pence....    66

                                Appendix

Questions From Chairman Bennie G. Thompson for Kevin K. McAleenan    69
Question From Honorable Sheila Jackson Lee for Kevin K. McAleenan    69
Question From Honorable Nanette Diaz Barragan for Kevin K. 
  McAleenan......................................................    69
Questions From Honorable Kathleen M. Rice for Kevin K. McAleenan.    69
Questions From Honorable Clay Higgins for Kevin K. McAleenan.....    69

 
 A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        Wednesday, May 22, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Rice, Correa, Torres Small, Rose, Underwood, Slotkin, 
Cleaver, Green of Texas, Clarke, Titus, Barragan, Rogers, King, 
McCaul, Katko, Ratcliffe, Higgins, Lesko, Green of Tennessee, 
Taylor, Joyce, Crenshaw, and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on a 
review of the fiscal year 2020 budget request for the 
Department of Homeland Security.
    Today, the committee is meeting to examine the President's 
budget. This hearing was originally scheduled for earlier this 
month with Secretary Nielsen who resigned before the hearing 
was held.
    I'd like to welcome our Acting Secretary of Homeland 
Security, Secretary Kevin McAleenan. The Acting Secretary is 
being asked to defend a budget before us, in my estimation, is 
very difficult.
    The President--the Secretary is wearing two hats, as you 
know. He has been a career employee here in Federal service 
and, in my mind, has done a good job. I have thanked him on a 
number of occasions for his work, and I look forward to seeing 
him and working with him even more in this role. So we welcome 
you here today.
    President Trump's budget prioritizes construction of a 
border wall at the expense of critical Homeland Security 
priorities, such as first responder and Homeland Security 
grants, cybersecurity programs to defend against foreign 
spying, and initiatives to secure our transportation systems 
from terrorist attack.
    The Acting Secretary's prepared testimony states doing more 
with less is an acceptable method for achieving mission goals, 
yet this is exactly what the President's budget request would 
force key parts of the Department to do.
    The President would squander $8.6 billion in taxpayers' 
money on a wall that would do nothing to address the current 
situation on the border. I suspect the Acting Secretary knows 
that, even if he cannot say it, for fear of being the next 
Department official to be dismissed by the White House. Make no 
mistake, it will be the American people picking up the tab for 
the wall, not Mexico, as the President promised.
    Congress is preparing to provide additional funding to 
address the humanitarian crisis on the border, but we cannot 
allow the President to compromise the rest of the Department or 
our Nation's homeland security in the mean time.
    Unfortunately, rather than engaging with Congress to 
address the humanitarian crisis and implement sound border 
policy, the White House only continues to make matters worse. 
The President fired Department officials who tried to offer a 
voice of reason, cut off aid to Central America intended to 
help address the root causes of migration, and is sending 
essential DHS personnel to the border, potentially undermining 
the Department's other critical missions. Frankly, between the 
vacancies at the Department and the reports of infighting 
coming out of the White House, it is difficult to know who is 
calling the shots when it comes to the border: The President, 
the Acting Secretary, or Stephen Miller.
    Meanwhile, the number of people in CBP's custody continues 
to rise. We also continue to see shocking photos of families 
being held in inhumane conditions and children sleeping on the 
bare ground covered by nothing more than 4 blankets. 
Tragically, just this week, yet another child died in the 
Department's custody.
    But what can we expect from an administration that has 
separated at least 5,000 children from their parents at the 
border? To the extent this administration has a border policy, 
it has been an abject failure. It is past time to implement a 
strategy of commonsense solutions to address the humanitarian 
crisis at the border while ensuring security and upholding our 
values.
    First, we need to ensure humanitarian conditions for people 
in custody, and particularly, vulnerable populations like 
children and pregnant women. The surge in families at our 
borders does not excuse inhumane treatment or relieve us of an 
obligation to treat people with basic decency. As I mentioned, 
Congress is engaging with this administration to provide 
supplemental funding.
    Second, we need more immigration judges and asylum officers 
to increase capacity to handle asylum claims and address the 
long-standing immigration court backlog.
    Third, we need to expand proven, cost-effective 
alternatives to detention to ensure people show up for their 
court dates as scheduled while their cases proceed.
    Finally, we need to help address the root causes prompting 
people to come north by restoring aid to Central American 
countries acting as partners in addressing this crisis. We can 
protect our borders and our homeland while also protecting our 
American values.
    The President and the White House have not proven up to 
that task, but I hope the Acting Secretary will partner with 
Congress in that effort.
    In closing, I want to thank the over 240,000 men and women 
in the Department of Homeland Security for the work they do to 
secure our Nation every day. From the Coast Guard personnel 
patrolling our coasts and waterways, to the Customs and Border 
Protection Officers at our land borders, to the Transportation 
Security Officers I see as I fly to and from Jackson, 
Mississippi, every week and everywhere in between, we 
appreciate the work you do.
    I thank the Members for joining us, and I look forward to 
our discussion.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 22, 2019
    Today, the committee is meeting to examine the President's fiscal 
year 2020 budget request for the Department of Homeland Security. This 
hearing was originally scheduled for earlier this month with then-
Secretary Kirstjen Nielsen, who resigned before the hearing was held. 
We are joined this morning by Acting Secretary of Homeland Security 
Kevin McAleenan. The Acting Secretary is being asked to defend a budget 
request that is, in a word, indefensible. President Trump's budget 
prioritizes construction of a border wall at the expense of critical 
homeland security priorities, such as first responder and homeland 
security grants, cybersecurity programs to defend against foreign 
spying, and initiatives to secure our transportation systems from 
terrorist attack.
    The Acting Secretary's prepared testimony states ``doing more with 
less is an unacceptable method for achieving mission goals.'' Yet that 
is exactly what the President's budget request would force key parts of 
the Department to do. The President would squander $8.6 billion in 
taxpayer money on a wall that will do nothing to address the current 
situation on the border. I suspect the Acting Secretary knows that, 
even if he cannot say it for fear of being the next Department official 
to be dismissed by the White House. And make no mistake, it will be the 
American people picking up the tab for the wall, not Mexico as the 
President promised. Congress is preparing to provide additional funding 
to address the humanitarian crisis on the border, but we cannot allow 
the President to compromise the rest of the Department, or our Nation's 
homeland security, in the mean time. Unfortunately, rather than 
engaging with Congress to address the humanitarian crisis and implement 
sound border policy, the White House only continues to make matters 
worse. The President fired Department officials who tried to offer a 
voice of reason, cut off aid to Central America intended to help 
address the root causes of migration, and is sending essential DHS 
personnel to the border, potentially undermining the Department's other 
critical missions.
    Frankly, between the vacancies at the Department and the reports of 
infighting coming out of the White House, it is difficult to know who 
is calling the shots when it comes to the border. The President? The 
Acting Secretary? Stephen Miller? Meanwhile, the number of people in 
CBP's custody continues to rise. We also continue to see shocking 
photos of families being held in inhumane conditions and children 
sleeping on the bare ground covered by nothing more than foil blankets. 
And, tragically, just this week yet another child died in the 
Department's custody. But what can we expect from an administration 
that separated at least 5,000 children from their parents at the 
border? To the extent this administration has a border policy, it has 
been an abject failure. It is past time to implement a strategy of 
common-sense solutions to address the humanitarian crisis at the border 
while ensuring security and upholding our values.
    First, we need to ensure humanitarian conditions for people in 
custody, and particularly vulnerable populations like children and 
pregnant women. The surge in families at our borders does not excuse 
inhumane treatment or relieve us of an obligation to treat people with 
basic human decency. As I mentioned, Congress is engaging with the 
administration to provide supplemental funding. Second, we need more 
immigration judges and asylum officers to increase capacity to handle 
asylum claims and address the long-standing immigration court backlog. 
Third, we need to expand proven, cost-effective alternatives to 
detention to ensure people show up for their court dates as scheduled 
while their cases proceed. Finally, we need to help address the root 
causes prompting people to come north by restoring aid to Central 
American countries acting as partners in addressing this crisis.
    We can protect our borders and our homeland while also protecting 
our American values. The President and the White House have not proven 
up to that task, but I hope the Acting Secretary will partner with 
Congress in that effort. In closing, I want to thank the over 240,000 
men and women of the Department of Homeland Security for the work they 
do to secure our Nation every day. From the Coast Guard personnel 
patrolling our coasts and waterways to the Customs and Border 
Protection officers at our land borders to the Transportation Security 
Officers I see as I fly to and from Jackson, Mississippi every week--
and everywhere in between--we appreciate the work you do.

    Chairman Thompson. I will now recognize the Ranking Member 
of the full committee, the gentleman from Alabama, Mr. Rogers, 
for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you, Secretary McAleenan, for being here with us 
today. I look forward to your testimony and discussion that we 
are going to have.
    There is a National security and humanitarian crisis at the 
border. That is why I supported the President's February 
National emergency declaration. The facts on the border prove 
it. CBP detained more than 109,000 immigrants along the 
Southwest Border just last month. That is a 591 percent 
increase over the same month 2 years ago. On May 4 of this 
year, CBP apprehended 5,235 migrants on the Southwest Border. 
That is the highest number ever recorded. In the first 6 months 
of fiscal year 2019, over 150 groups of 100 or more migrants 
reached the Southwest Border. That is a 7,400 percent increase 
over the entirety of fiscal year 2017.
    CBP apprehensions between the ports of entry are on track 
to reach a 12-year high. CBP has already uncovered more than 
3,000 fraudulent cases this year alone where adults posing as 
biological parent or legal guardian of a minor child. If this 
isn't a crisis, I am not sure what this committee deems to be 
one.
    Actually, we do. Yesterday, the Transportation Subcommittee 
held a hearing entitled, ``The TSA Workforce Crisis: A Homeland 
Security Risk.'' I appreciate the TSA work force has issues, 
but I would say that thousands of migrants per day overrunning 
and breaking our immigration system is the actual crisis and 
the true homeland security risk.
    This will be the committee's sixth hearing in 5 months 
focused on the border. How many hearings before we see 
solutions coming from this Majority? Six hearings, zero 
solutions.
    This committee has heard testimony that transnational 
criminal organizations are exploiting our immigration laws for 
financial gains. Worse, these TCOs abuse women and children 
during their journey here, they dump them in the desert in poor 
health without food or water. Men and women and children are 
dying because of this dangerous journey human smugglers profit 
from. I know that no one on this committee finds this 
acceptable, so why won't this committee address it?
    In April, DHS requested legislation to address this 
abhorrent practice, yet there are--yet here we are in another 
hearing, and I don't understand why this committee won't act. 
Maybe it is because this committee is spending too much of its 
time on Twitter. Since the Democrats were sworn into office in 
January, they have tweeted 316 times about the border. Six 
hearings, 316 tweets, zero solutions.
    On May 1, the administration sent to Congress a request for 
emergency humanitarian appropriations to address this crisis at 
the Southwest Border. The request for $4.5 billion would feed 
and shelter migrant families and unaccompanied children. It 
would provide urgent medical care and transportation services 
to sick migrants. It also would have supported the men and 
women of DHS who are working overtime on the front lines of a 
crisis. Yet the Majority of this committee sent out press 
releases refusing to reconsider--refusing to consider the 
request.
    When I drafted this emergency humanitarian request as an 
amendment to the supplemental, the Democrat Majority on the 
Rules Committee voted it down 9 to 4 when Representative Lesko 
offered it at markup. Six hearings, 316 tweets, 1 amendment 
denied, zero results.
    I hope my colleagues on the other side of the aisle will 
use this opportunity today to ask Secretary McAleenan what 
resources his Department needs to fulfill its lawful mission at 
the Southwest Border. The Republicans on this committee are 
ready to work with anyone on the other side to solve the 
growing humanitarian crisis.
    Hearings, tweets, releases won't solve it. Hatred for the 
President won't solve it either. We can't wait 2 more years to 
address this Southwest Border crisis. We must act now.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Ranking Member Rogers follows:]
                              May 22, 2019
                Statement of Ranking Member Mike Rogers
    There is a National security and humanitarian crisis at the border. 
That is why I supported the President's February National emergency 
declaration. The facts on the border prove it:
    CBP detained more than 109,000 immigrants along the Southwest 
Border last month.
    That's a 591 percent increase compared to April 2017.
    On May 4 of this year, CBP apprehended 5,235 migrants at the 
Southwest Border. That's the highest number ever recorded.
    In the first 6 months of fiscal year 2019, over 150 groups of 100 
or more migrants reached the Southwest Border. That's a 7,400 percent 
increase over the entirety of fiscal year 2017.
    CBP apprehensions between ports of entry are on track to reach a 
12-year high.
    CBP has already uncovered more than 3,000 fraudulent cases this 
year alone where adults posing as a biological parent or legal 
guardian.
    If this isn't a crisis, I'm not sure what this committee deems one.
    Actually, we do. Just yesterday the Transportation Subcommittee 
held a hearing entitled: ``The TSA Workforce Crisis: A Homeland 
Security Risk.'' I appreciate the TSA workforce has issues, but I would 
say that thousands of migrants per day overrunning and breaking our 
immigration system is the actual crisis and the true homeland security 
risk.
    This will be the committee's sixth hearing in 5 months focused on 
the border. How many hearings before we see solutions coming from this 
majority? Six hearings. Zero solutions.
    This committee has heard testimony that transnational criminal 
organizations are exploiting our immigration laws for financial gain. 
Worse, these TCOs abuse women and children during their journey here, 
then dump them in the desert in poor health without food or water.
    Men, women, and children are dying because of this dangerous 
journey human smugglers profit of off. I know no one on this committee 
finds that acceptable. So why won't this committee address it?
    In April, DHS requested legislation to address this abhorrent 
practice. Yet, here we are in another hearing and I don't understand 
why this committee won't act.
    Maybe it's because this committee is spending too much time on 
Twitter. Since the Democrats were sworn into office in January, they 
have tweeted 316 times about the border. Six hearings. 316 tweets. Zero 
solutions.
    On May 1, the administration sent to Congress a request for 
emergency humanitarian appropriations to address the crisis at the 
Southwest Border.
    This request of $4.5 billion would feed and shelter migrant 
families and unaccompanied children. It would provide urgent medical 
care and transportation services to sick migrants. It also would have 
supported the men and women of DHS who are working overtime on the 
front lines of the crisis.
    Yet, the Majority on this committee sent out a press release 
refusing to consider the request.
    When I drafted this emergency humanitarian request as an amendment 
to the supplemental, the Democratic Majority on the Rules Committee 
voted it down 9 to 4 when Rep. Lesko offered it at their markup.
    Six hearings. 316 tweets. One amendment denied. Zero results.
    I hope my colleagues on the other side of the aisle will use this 
opportunity today to ask Acting Secretary McAleenan what resources his 
Department needs to fulfil its lawful mission on the Southwest Border.
    The Republicans on this committee are ready to work with anyone on 
the other side to solve this growing humanitarian crisis. Hearings, 
tweets, press releases won't solve it. Hatred for the President won't 
solve it, either.
    We can't wait another 2 years to address our Southwest Border 
crisis. We must act now.

    Chairman Thompson. Other Members of the committee are 
reminded that under the committee rules, opening statements may 
be submitted for the record.
    I welcome our witness today. Mr. McAleenan was sworn in as 
the Acting Secretary of Homeland Security on April 10, 2019. 
Prior to being named Acting Secretary, he served as 
commissioner of the U.S. Customs and Border Protection. The 
Acting Secretary previously held several leadership positions 
at CBP and the former U.S. Customs Service.
    Without objection, the witness's full statement will be 
inserted in the record.
    I now ask the Acting Secretary to summarize his statement 
for 5 minutes.

   STATEMENT OF KEVIN K. MC ALEENAN, ACTING SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. McAleenan. Thank you, Mr. Chairman, and good morning, 
Ranking Member Rogers and the distinguished Members of the 
committee. I appreciate the opportunity to appear before you 
today.
    It is a sincere honor to serve as the Acting Secretary of 
the Department of Homeland Security. In my view, DHS has the 
most compelling mission in Government: To safeguard the 
American people, our homeland, and our values. As Acting 
Secretary, I intend to work with this committee and serve as an 
advocate for the Department to ensure our people have the 
resources and the authorities they need to carry out their 
critical missions on behalf of the American people.
    Today, I have the privilege of sharing the President's 
fiscal year 2020 budget request for the Department of Homeland 
Security with this committee. The request would strengthen the 
security of our Nation through enhanced border security, 
immigration enforcement, cybersecurity, transportation 
security, counterterrorism, and resilience to disasters.
    DHS is a multi-mission department. Before I talk about the 
urgent border security and humanitarian crisis that we are 
facing, I want to ensure this committee that DHS will not lose 
momentum across any of our numerous responsibilities.
    The President's budget requests funding for critical 
missions across the Department. For our Cybersecurity and 
Infrastructure Security Agency, the budget requests $1.3 
billion to assess evolving cybersecurity risks, protect Federal 
Government information systems and critical infrastructure.
    The budget also supports the launch of Protect 2020, a new 
initiative designed to get all States to a baseline level of 
election infrastructure cybersecurity well before the National 
elections of 2020. While DHS does not control State and local 
election infrastructure and does not think we should, we can 
provide much-needed technical assistance and support to willing 
partners.
    The budget supports additional Transportation Security 
Officers to enhance security effectiveness and stay ahead of 
increasing costs and growth in air travel within the United 
States. The $3.3 billion for TSA also includes funding for an 
additional 700 screeners and 350 computed tomography X-ray 
units.
    For FEMA, the budget provides a significant increase in the 
Disaster Relief Fund, begins implementation of new requirements 
in the Disaster Recovery Reform Act, and funds critical 
operational positions identified in the 2017 Hurricane Season 
After-Action Report.
    For the U.S. Coast Guard, the budget continues efforts to 
fund the Offshore Patrol Cutter and advances the Polar Security 
Cutter program.
    A lot there for across the Department in all of our 
missions. But for border security and immigration enforcement, 
as you are all aware, we are in the midst of an on-going 
security and humanitarian crisis at our Southwest Border. The 
Department, at the request of our front-line officers and 
agents, has repeatedly made clear that we need additional 
resources and additional authorities to respond to this crisis.
    To put the situation in context, in April, CBP apprehended 
and encountered almost 110,000 migrants attempting to cross 
without legal status, the most in a single month in over a 
decade and over a third of the total crossings we saw in all of 
fiscal year 2017. Over 65 percent of those crossing were 
families, with over 40,000 children entering our immigration 
system in a single month.
    And the crisis continues. In 3 separate days in May, we 
have encountered 5,500 people crossing our border without 
authorization. Our immigration system is full, and we are well 
beyond our capacity at every stage of the process. This means 
that new waves of vulnerable populations arriving at our border 
are exacerbating the already urgent humanitarian and security 
crisis we are facing.
    Through surging resources from DHS and Federal partners 
with medical teams from the Coast Guard and HHS, military and 
National Guard troops, over 1,000 CBP and HSI detailees, and 
DHS volunteers, along with working with State and local 
governments and nongovernmental organizations, we are working 
to do everything we possibly can to address the immediate and 
dire humanitarian crisis.
    But it is not enough. We continue to face tragedies at the 
border, particularly with regard to the safety of children. 
This month, Border Patrol agents have rescued dozens of 
children in the Rio Grande, but several have been known to have 
drowned, including a 10-month-old baby 2 weeks ago. We have 
lost 2 teenagers to illness in Federal custody, 1 with HHS and 
1 in CBP custody just yesterday. A 2-year-old encountered in 
April and taken to the hospital by Border Patrol agents and 
released with her mother also passed away this month after 
weeks of critical medical care. These tragedies are devastating 
to us, and they are avoidable.
    The problem we face is unprecedented and challenging. It 
requires working together from a shared set of facts to solve 
it. We need sustained investment, additional emergency support, 
but also, changes to our immigration laws to overcome this 
humanitarian and security crisis at the border.
    On the resources front, the President's budget will help. 
First, it requests $523 million to address the humanitarian 
crisis. This will allow us to provide better care for those we 
come into contact with through apprehension, custody, 
detention, and eventually removal.
    It requests $5 billion for border security, funding for the 
construction of approximately 200 miles of a new border wall 
system, a proven deterrent requested by our front-line agents. 
It also calls for 750 additional Border Patrol Agents, 275 
Customs and Border Protection Officers, and over 1,660 ICE 
front-line and support personnel.
    The budget requests will make much-needed upgrades to 
sensors, command-and-control systems, and aircraft to help our 
men and women combat criminals who are profiting from human 
suffering.
    While our 2020 budget will help address this crisis, we 
will need additional funding sooner. Given the scale, we will 
exhaust our resources well before the end of this fiscal year, 
which is why the administration sent a supplemental funding 
request to the Congress 3 weeks ago.
    In addition to the $3 billion for Health and Human Services 
to care for unaccompanied children, the request includes $1.1 
billion for the Department of Homeland Security; $391 million 
for humanitarian assistance, including for temporary processing 
facilities; $530 million for border operations, to include our 
surge personnel as well as increased detention capacity; and 
$178 million for operations and support costs, including pay 
retention incentives for our overworked men and women on the 
front line.
    This supplemental request is critical, but unless Congress 
addresses the pull factors, namely our vulnerable legal 
framework for immigration, children will continue to be put at 
risk in this dangerous journey.
    The administration has been working in a bipartisan fashion 
to outline the important reforms that can get to the root of 
the problem, providing language to multiple Congressional 
committees that would end this humanitarian crisis. This 
includes allowing DHS to detain families together during the 
immigration hearings, allowing children to safely apply for 
refugee protections in their home or neighboring countries, 
while also providing authority for DHS to repatriate children 
to Central America, as we do with Canada and Mexico today, and 
reforming an asylum process that has become overwhelmed by 
claims that do not meet the standard.
    Without these resources and authorities, the situation will 
remain untenable. While DHS will continue to do all it can to 
manage the crisis in an operationally effective, humane, safe, 
and secure manner, every day Congress does not act puts more 
lives at risk and increases the burden on an overtasked system.
    I want to close by reiterating the strength of DHS is its 
people. I am humbled and inspired by their selfless dedication 
of the front-line agents, officers, and personnel confronting 
this crisis. Despite the challenges they face, the men and 
women of DHS continue to act to stop criminals exploiting our 
border and to help those in need. They are remarkable people. 
They deserve our support. I respectfully ask this committee to 
continue to support them with the resources and authorities 
they need.
    Thank you for the opportunity to appear before you today. I 
look toward to your questions.
    [The prepared statement of Mr. McAleenan follows:]
                Prepared Statement of Kevin K. McAleenan
                              May 22, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee: It is a privilege to appear before you today to 
discuss the Department of Homeland Security's (DHS) essential missions 
and to present the President's fiscal year 2020 budget for the 
Department.
    DHS is comprised of 14 major components employing more than 240,000 
men and women dedicated to the mission of ensuring the safety and 
security of our great Nation. I want to start by thanking the men and 
women of the Department of Homeland Security for their extraordinary 
service to our Nation. The men and women of DHS are exceptional and 
dedicated professionals who are on watch 24 hours a day, 365 days a 
year. Their mission is to protect Americans from threats by land, sea, 
air, and in cyber space, while also promoting our Nation's economic 
prosperity. They work tirelessly to strengthen the safety and security 
of our Nation from persistent and emerging dangers, including 
terrorists, transnational criminal organizations, rogue nation-states, 
and natural disasters.
    Although our mission statement is simple, the mission itself is 
extremely complex. The Department's reach is global; spanning more than 
7,450 miles of U.S. border and 95,000 miles of coastline to 4.5 million 
square miles of U.S. Exclusive Economic Zone (EEZ) and regions of the 
high seas known for smuggling operations. Our reach continues into the 
cyber world where nefarious actors attack U.S. financial, 
technological, and electoral interests. The Department is also 
responsible for the security of our traveling public and movement of 
goods through international trade. It is our dedicated personnel who 
not only achieve DHS's global reach, they also create efficient and 
effective operations 24 hours a day. I am proud to lead and represent 
the dedicated men and women of DHS as they are America's front-line 
defense.
    The fiscal year 2020 President's budget for DHS requests $51.7 
billion in net discretionary funding and an additional $19.4 billion 
for the Disaster Relief Fund (DRF) supporting response to and recovery 
from major disasters. The President's budget proposes to strengthen the 
security of our Nation through enhanced border security, immigration 
enforcement, cybersecurity, transportation security, resilience to 
disasters, and senior leadership protection.
    Highlighting some of the Department's accomplishments provides a 
mere glimpse of the threats to our Nation's security. At the completion 
of fiscal year 2018, Customs and Border Protection encountered more 
than 683,000 illegal migrants and inadmissibles, Homeland Security 
Investigations made more than 34,000 criminal arrests, of which 4,300 
were gang-related; and law enforcement agents and the United States 
Coast Guard (USCG) seized more than 1 million pounds of illegal drugs. 
Keeping our traveling public safe is another vitally important job for 
DHS. For example, in fiscal year 2018 the Transportation Security 
Administration (TSA) screened more than 800 million aviation passengers 
while preventing almost 4,200 firearms from being carried onto 
aircraft.
    In 2018, the United States endured significant natural disasters 
such as Hurricanes Michael and Florence and the deadliest wildfires in 
California's modern history including the one that obliterated the town 
of Paradise. Preserving life and reclamation efforts, FEMA obligated 
more than $9.2 billion in Public Assistance, including funding to clear 
debris, rebuild roads, schools, libraries, and other public facilities, 
and provided more than $1 billion in Individual Assistance to 
survivors. These are just a few examples of how our men and women 
deliver on a daily basis for the American people.
    Security of our Nation's borders remains a primary focus of the 
administration and the Department, and doing more with less is an 
unacceptable method for achieving mission goals. This situation on the 
border with unprecedented numbers of families and children represents 
an acute and worsening crisis. CBP encountered nearly 40,000 children 
in the month of April alone. Our immigration system is not equipped to 
accommodate the significant change in migration patterns from one 
largely composed of single adults from Mexico to one comprised mainly 
of families and unaccompanied children from non-contiguous countries. 
Previous patterns--somewhat predictable in composition and predicated 
on seasonal variations--are no longer the norm. Unlawful migration 
through the U.S. Southern Border has increased by over 60 percent from 
the previous year. In addition, the speed with which illegal migrants 
are transiting through Mexico to reach our Southern Border is 
frustrating our best efforts to respond quickly and keep pace with the 
overwhelming numbers of migrants arriving at the Southern Border.
    The migration flow and the resulting humanitarian crisis is now 
even more dire and is rapidly overwhelming the ability of the Federal 
Government to respond. In March, U.S. Customs and Border Protection 
(CBP) encountered over 103,000 illegal border crossers and inadmissible 
aliens, and in April that number exceeded 109,000--the highest monthly 
levels in more than a decade.
    Despite heroic efforts, the Nation's ability to humanely and 
compassionately care for vulnerable populations and expeditiously 
process and detain those who should not be admitted is being stressed 
to the breaking point. Unaccompanied children and families are crowded 
into U.S. Border Patrol stations that were never intended as long-term 
shelters. U.S. Border Patrol personnel no longer have the ability to 
identify, process, and transport all of those apprehended at the border 
to safe and secure facilities designed to house them, but have instead 
been increasingly pressed into service to provide critical 
humanitarian, medical support, and transportation services for this 
uniquely vulnerable population.
    While our fiscal year 2020 budget will help address this crisis, we 
will need additional funding sooner. Given the scale of the crisis, we 
will exhaust our resources before the end of this fiscal year, which is 
why the administration sent a fiscal year 2019 supplemental funding 
request to Congress earlier this month. The $4.5 billion fiscal year 
2019 supplemental request includes $1.1 billion for the Department of 
Homeland Security to address the immediate humanitarian crisis.
    The Southwest Border still lacks a permanent wall and persistent 
domain awareness in vulnerable areas. The fiscal year 2020 budget 
requests $8.6 billion in DHS and DOD funding for the construction of 
approximately 300 miles of new border wall system. A border wall is a 
proven deterrent that enhances U.S. Customs and Border Protection's 
(CBP) ability to apprehend those entering our Nation illegally; it is 
foundational to any strategy of achieving operational control of the 
Southwest Border.
    Domain awareness complements a permanent wall through actionable 
intelligence. The current crisis at the border demands persistent 
awareness to allow our agents to respond rapidly and effectively to any 
incursion, and achieving this level of awareness requires a commitment 
to the procurement and sustainment of technology. The President's 
budget requests upgrades to sensors such as the Remote Video 
Surveillance System (RVSS) and associated command and control (C2) 
systems, continued procurement of the Multi-Role Enforcement Aircraft, 
and UH-60 Blackhawk Helicopter upgrades. Through continued domain 
awareness and border wall construction, DHS increases its chances of 
mission success of ensuring that our Nation's Southwest Border and our 
citizens are secure.
    Border security in itself is not enough. We must continue to 
address those who already have entered our country illegally. We must 
further immigration enforcement. The U.S. Immigration and Customs 
Enforcement's (ICE) average daily population (ADP) forecasting model 
reinforces a budget increase to 54,000 beds. This increase allows ICE 
to handle continued migration flows, enhance enforcement activity 
within our borders, and remove those who have entered illegally and are 
presenting a danger to our communities. The President's budget 
maintains safe and secure facilities for 2,500 families.
    For lower-risk apprehended aliens, funding is requested to expand 
the Alternatives to Detention (ATD) program to 120,000 daily 
participants. The ATD program supervises certain individuals using a 
combination of personal visits and monitoring technology, allowing 
individuals to remain in their communities while their cases are 
processed. Additionally, the Transportation and Removal Program 
requires additional resources in fiscal year 2020 to ensure the safe 
and secure transportation of aliens who are either subject to Final 
Orders of Removal or require transfer within the United States.
    Investment in our most critical resource, human capital, remains a 
high priority for me. Funding is included in the request for 750 
additional Border Patrol Agents, 273 CBP Officers, and more than 1,660 
ICE front-line and support personnel. Retaining our personnel is a 
priority, and the Department continues to look for affordable and 
effective retention measures, especially for our Border Patrol Agents.
    The fiscal year 2020 budget also requests increased resources for 
international trade and travel requirements. In 2018, the President 
signed the National Security Presidential Memorandum establishing the 
National Vetting Center (NVC). The NVC utilizes law enforcement and 
Classified data to better identify potential threats to the homeland. 
It brings together different streams of information and intelligence 
into a single process for adjudicating applications for travel to the 
United States. Through this technology, CBP can now receive near-real 
time responses from intelligence community partners for more than 
35,000 ESTA applications each day.
    Our Nation's defense continues beyond the physical borders and into 
the high seas. It is the USCG that stands as our phalanx to those who 
threaten our maritime interests. Since 1790, the USCG has performed its 
vital mission of saving those in peril while promoting our National 
security and economic prosperity in a complex and evolving maritime 
environment. The fiscal year 2020 budget is committed to maintaining 
USCG readiness levels and continued modernization with new and more 
capable assets. The President's budget includes more than $1.1 billion 
for recapitalization of Coast Guard resources including, but not 
limited to, the genesis of the third Offshore Patrol Cutter, 
procurement of two Fast Response Cutters, funding to continue efforts 
toward constructing the Nation's first Polar Security Cutter, and 
aircraft sensor modernization. Additionally, this budget includes 
funding for a 3.1 percent pay raise for our military personnel.
    Continuing efforts to improve public transportation resiliency, DHS 
is steadfast in addressing areas of vulnerability. Although heavily 
fortified, the public air-travel system must evolve with changing 
threats. TSA is an intelligence-driven, National security organization 
employing risk-based security principles to actively combat evolving 
threats to our critical transportation infrastructure.
    TSA continues to experience airline passenger volume growth at 
airport checkpoints Nation-wide. Additional Transportation Security 
Officers (TSO) are needed to uphold security effectiveness and 
compliance, keep screening times on pace with volume growth, and stay 
ahead of increasing costs and security demands at airports Nation-wide. 
The $3.3 billion requested for the Screening Workforce adds 1,028 
screener positions for a total of more than 46,600 TSOs, the highest 
level in history. The request proposes a $1.00 increase in the 9/11 
passenger security fee in order to cover a greater share of the costs 
of aviation security. This is a minimal fee increase and should be 
considered seriously by Congress. The budget also funds an additional 
320 computed tomography (CT) units. The CT units are used in airport 
screening lanes to effectively detect smaller and more artfully 
concealed threats within carry-on bags.
    DHS continues to improve its collective efforts in cybersecurity 
with the recent creation of the Cybersecurity and Infrastructure 
Security Agency (CISA). In passing the Cybersecurity and Infrastructure 
Security Agency Act of 2018, Congress recognized that the role played 
by CISA has never been more important. Requiring collaboration between 
both Government and private-sector organizations, CISA is charged with 
protecting the Nation's critical infrastructure from physical and cyber 
threats. Through this mission, DHS is focused on improving our digital 
defense as cybersecurity threats continue to grow in scope and 
severity.
    To assess evolving cybersecurity risks and protect Federal 
Government information systems and critical infrastructure, the fiscal 
year 2020 President's Budget includes more than $1.3 billion for 
Federal Network Protection (FNP) and Infrastructure Security. Included 
in FNP are the Continuous Diagnostics and Mitigation, the National 
Cybersecurity Protection System--known operationally as EINSTEIN--and 
Federal Network Resilience. These systems in conjunction with the 
National Cybersecurity and Communications Integration Center (NCCIC) 
provide the technological foundation to secure and defend the Federal 
Government's civilian information technology infrastructure against 
advanced cyber threats.
    The resiliency mission is carried even further through the Federal 
Emergency Management Agency (FEMA). Its mission reduces loss of life 
and property and protects the Nation from all hazards by leading and 
supporting the Nation in a risk-based, comprehensive emergency 
management system. Before, during, and after disasters, FEMA focuses on 
supporting and empowering disaster survivors by increasing their 
capacity to take effective and practical steps to help themselves, 
their families, and their communities. The better prepared that 
citizens are to assist themselves and others in times of need, the 
stronger our Nation will be in the event of future emergencies.
    Therefore, the fiscal year 2020 President's budget requests 
increased funding for programs that support FEMA's 3 primary strategic 
goals of: Building a culture of preparedness, increasing catastrophic 
disaster readiness, and reducing FEMA complexity. Requested funds 
support the implementation of FEMA Integration Teams (FIT) who develop 
relationships with State emergency management offices, enhancing the 
coordinated State and Federal response. The budget also includes 
funding for the fiscal year 2020 Disaster Relief Fund in support of 
disaster declarations for Hurricanes Harvey, Irma, and Maria, and for 
the California wildfires. Communications between first responders is 
vitally important for immediate real-time information sharing during 
all threats, hazards, or incidents. Thus, I am committed to ensuring 
that our first responders can communicate effectively and the request 
for CISA includes $167.3 million for emergency communications toward 
this effort.
    I greatly appreciate the Congress authorizing the Countering 
Weapons of Mass Destruction Office (CWMD) last year. CWMD leads 
provides the subject-matter expertise and helps to equip the 
Department's field operators so they may effectively defend against 
weapons of mass destruction, including potential terrorist use of WMD. 
The President's 2020 budget continues to enable our efforts to develop 
a robust and technologically advanced analytic capability combating 
chemical, biological, radiological, and nuclear threats to the homeland 
and our interests. Additionally, funding is requested for the Radiation 
Portal Monitor Replacement Program (RPMRP) supporting CBP's operational 
effectiveness at the Nation's land, sea, and air ports of entry. 
Ensuring the effective and safe movement of goods through our ports, 
the RPM technology provides the cost-effective capability to scan cargo 
for radiological and nuclear threats without an adverse impact to the 
flow of commerce.
    The U.S. Secret Service carries out the unique and integrated 
missions of protecting senior leadership and investigating threats to 
the Nation's financial system. Best known for protecting the President, 
the Vice President, their immediate families, visiting heads of state, 
and other designated individuals, the Secret Service also protects the 
White House Complex, the Vice-President's Residence, foreign diplomatic 
missions, and other designated buildings. Further, it coordinates 
security at designated National Special Security Events such as the 
State of the Union Address. Vitally important to our economic way of 
life, the Secret Service protects our financial infrastructure by 
investigating counterfeiting, crimes related to financial securities of 
the United States, identity theft, and computer fraud. The President's 
budget includes $33.4 million to hire additional Special Agents, 
Uniform Division Officers, and administrative, professional, and 
technical personnel to achieve an end strength of 7,777, the highest in 
Secret Service history. The 2020 Presidential Election is only 18 
months away, and the budget includes almost $151 million to ensure that 
the 2020 Presidential Campaign is adequately resourced for the 
protection of major candidates, nominees, their spouses, and nominating 
conventions.
    Finally, since our founding, DHS agencies have operated in 
temporary spaces and in offices scattered throughout D.C. metropolitan 
area. This has made it difficult for 240,000 employees to operate as 
``one'' Department. But starting in April 2019, we have a new base of 
operations. After many years, we have finally moved onto the St. 
Elizabeths Campus in Southeast Washington, DC; the home of the new DHS 
Headquarters. The fiscal year 2020 budget requests $224 million 
ensuring momentum into this first class facility. St. Elizabeths will 
become the primary hub of a more focused, more unified, more effective, 
Department of Homeland Security. We have this committee to thank for 
the historic move, and I look forward to welcoming all of you to visit.
    I continue to be amazed by the professionalism, dedication, and 
conviction that the DHS employees exhibit on a daily basis. Their 
resolve and devotion to the homeland security mission is on display 
daily, and the security of our Nation depends on Congress properly 
resourcing the very people charged with safeguarding the American 
people, our homeland, and our values.
    The fiscal year 2020 President's budget requests the necessary 
funding for the Department of Homeland Security to carry out its wide-
ranging, day-to-day mission. We are challenged everyday with crises 
spanning Southwest Border security to daily cyber attacks, and I call 
on Congress to assure the security of our Nation by providing the 
proper funding required to do our jobs.
    Thank you for the opportunity to appear before you and discuss the 
Department's fiscal year 2020 budget submission. I look forward to 
taking your questions.

    Chairman Thompson. Thank you, Mr. Secretary.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    This is a hearing to talk about the overall budget for the 
Department. One of the questions that comes to mind is the 
relief that went to Puerto Rico, and I want to make sure the 
record reflects that.
    Now, the President says that Puerto Rico got $91 billion. 
Is that true or false?
    Mr. McAleenan. I am certain that is correct, Mr. Chairman. 
I can get you the actual figures from FEMA, if that is helpful.
    Chairman Thompson. How long would it take you to get that 
number?
    Mr. McAleenan. We can get back to you very shortly.
    Chairman Thompson. Today?
    Mr. McAleenan. I will check with the team at FEMA on that 
calculation, but we will get it back to you, Mr. Chairman.
    Chairman Thompson. Well, right. I have been to Puerto Rico 
a couple of times looking at it. I have talked to the Governor, 
talked to a lot of mayors, and they are very concerned that the 
number that has been put out is, in actuality, not the real 
number. So I think we need to, as we look at this budget, to 
make sure that the numbers we have before us reflect an 
accurate amount. So that is the spirit in which it is given.
    Mr. McAleenan. Mr. Chairman, just very briefly, I have met 
with the acting administrator for FEMA, who has briefed me that 
we are spending more per week and per month in Puerto Rico than 
we do for a usual disaster for the entire repayment and entire 
assistance. So it is an extensive effort by FEMA and across the 
Department.
    Chairman Thompson. Well, is that because we have never had 
a disaster like that before?
    Mr. McAleenan. I think it is one of the most devastating 
natural disasters in our history.
    Chairman Thompson. Absolutely. So you would agree that we 
need to spend more?
    Mr. McAleenan. I think there is a lot of support going to 
Puerto Rico, and we are actively preparing for the new season.
    Chairman Thompson. I understand. But I think the amount of 
money should go toward the disaster.
    So in addition to that, Mr. Secretary, you have actual 
volunteers to go to the border to address the crisis. Can you 
tell me how many people are being deployed from the Northern 
Border to go to the Southern Border?
    Mr. McAleenan. So we have a mix of law enforcement 
resources from both CBP and HSI over at ICE already deployed. 
These are TDY'd law enforcement professionals. We do this 
routinely to address situations on the border. We have got 
about 200 of our agents from the Northern Border, Border Patrol 
agents deployed down now. We have solicited, as you noted, Mr. 
Chairman, for volunteers, just like we do in any crisis across 
the Department, to come help deal with the situation as well.
    Chairman Thompson. So your testimony is that the volunteers 
that are being deployed does not compromise security in any 
way?
    Mr. McAleenan. So this is something we look at from a risk 
management perspective. When we respond to a natural disaster, 
like a Harvey or Maria, we had over 2,000 volunteers deployed. 
So right now, our volunteer numbers are really in the 200 
range, so that is a much smaller response than a normal natural 
diaster already.
    But this is something we ask our leaders and our management 
to assess for risk and make sure we are not, you know, taking 
people that are critical to other missions, but also responding 
to an existing crisis at the same time.
    Chairman Thompson. So we have had testimony before the 
committee this week from the head of one of the larger 
airports, who indicated that he was very concerned that with 
the loss of personnel, that the potential to put the traveling 
public at risk existed and that he was concerned about it.
    Have you heard concerns like that from airports?
    Mr. McAleenan. So we are not going to put the traveling 
public at risk. We are not going to reduce our security posture 
in any way.
    Chairman Thompson. But you have--but you have heard that 
concern coming from airport directors?
    Mr. McAleenan. So that is a concern that the leaders at TSA 
will manage as they identify volunteers to support us. We have 
not sent TSOs to the border.
    Chairman Thompson. I understand that. I just want to know, 
have you heard from airport directors that they are concerned 
about it?
    Mr. McAleenan. Yes, I have seen the press reporting, and 
certainly, that is something we will manage carefully.
    Chairman Thompson. It is hoped that you will allay their 
concerns. But you have heard them?
    Mr. McAleenan. Yes.
    Chairman Thompson. Thank you. So the question about 
vacancies in the Department, we have had discussions about 
that. How are you addressing the vacancies at senior management 
level within the Department?
    Mr. McAleenan. Well, we are very happy earlier this month 
to submit a nomination for a permanent administrator at FEMA, I 
think that is an important role to fill very quickly in this 
hurricane season, with Jeff Byard.
    But our top 8 operating components, 4 out of 8 have 
confirmed or permanent heads. Two of them, TSA and CBP, were 
serving as Acting Secretary and acting deputy, but were 
confirmed heads as well, backfilled by very talented career 
professionals. Then at ICE, we have a 25-year veteran of 
service, Matt Albence, leading ICE effectively. This is 
something that I think we are in very good position to maintain 
our momentum at the Department.
    Chairman Thompson. Thank you. But based on the chart that 
your staff provided me, your Management director is vacant, 
your Science and Technology director is vacant, the Office of 
Strategy, Policy, and Plans is vacant, the Office of Public 
Affairs is vacant, the Office of Inspector General is vacant, 
the Chief Financial Officer is vacant. We go on and on.
    Now, this is--and I understand that. But at what point do 
you plan to fill the vacancies with these senior positions?
    Mr. McAleenan. Well, a number of those positions already 
have nominees either on the Hill or identified and in process. 
We have taken steps to make sure we are backfilling with 
talented professionals.
    Right now, Director Tex Alles from the Secret Service, who 
just moved to a position as acting deputy under secretary for 
management, he brings a wealth of experience having been the 
deputy at CBP, the head of Secret Service. He is helping make 
sure that we are maintaining a momentum with management.
    We have a tremendous team in the CFO shop that hasn't lost 
any momentum. So we are going to continue to get the job done 
for the American people.
    Chairman Thompson. I understand.
    Mr. McAleenan. We have many more permanent folks in place 
than you usually do at the transition of an administration, for 
example.
    Chairman Thompson. So is this the Secret Service director 
that got fired by the President?
    Mr. McAleenan. He has been moved to a key role for me as 
the acting deputy under secretary.
    Chairman Thompson. But he was fired by the President and 
you brought him back?
    Mr. McAleenan. There was a transition. He served admirably 
for 2 years at Secret Service, and now we have a tremendous 
Secret Service----
    Chairman Thompson. I don't have a problem with it. But he 
is the one that was fired. Am I correct?
    Mr. McAleenan. He has been moved to a new role at DHS.
    Chairman Thompson. OK. I yield to the Ranking Member.
    Mr. Rogers. I thank the Chairman.
    Before I get my questions, I just want to make the point I 
think it is unconscionable that relief to deal with this 
humanitarian crisis at the border is being held hostage for 
Puerto Rico to get more money when already we are having 
massive amounts of aid going to Puerto Rico, have been and 
continue to have, and we will continue to take care of Puerto 
Rico. But we have an enormous crisis at the border, families, 
children that are in a desperate situation, and we are not 
getting aid to them. It is just unconscionable.
    But having said that, of the $4.5 billion that has been 
requested, Mr. Secretary, I understand $3.3 of that would go to 
humanitarian aid. What would you do with that money if it was 
made available to you in a timely fashion?
    Mr. McAleenan. So the $3 billion itself is going to Health 
and Human Services to manage their statutorily-required 
responsibility to care for unaccompanied children arriving at 
the border, and they are arriving in record numbers right now. 
That seems very straightforward. They need more money to 
provide beds so that the kids can be kept in safe environments 
and not left at the border in Border Patrol stations. So that 
is very straightforward.
    The additional $1.1 billion for DHS is directly to address 
this crisis. We are talking about humanitarian support for 
processing centers for CBP. We are talking about additional 
security for those centers. We are talking about consumables, 
really just food, blankets, the basic supplies that you use to 
care for people, and for border operations.
    As we noted, we are sending people temporarily to the 
border to help address this crisis. That costs a lot of money 
to do that and to sustain that. We need support for the 
volunteer surge. We need additional ICE detention for the 
single adults that are arriving in record numbers as well.
    So we have got a lot of work to do across the Department to 
manage this crisis, both to take care of people in our custody 
and to ensure that we are maintaining border security while we 
do that.
    Mr. Rogers. Now, the Chairman and I had a chance to meet 
with you yesterday afternoon, and we talked a little bit about 
the Flores decision and what its impact has been on you. Can 
you describe that for the full committee and what a possible 
solution would be?
    Mr. McAleenan. I can. So what we are seeing now is about 65 
percent of those crossings are either family units or 
unaccompanied children. Family units have reached a record 
level, 59 percent so far this month of our total crossings on 
the border. That is a direct response to the vulnerability in 
our legal framework caused by a decision in a district court in 
late 2015, upheld in 2016, that prevented DHS from keeping 
families together during their immigration proceedings.
    That is what we did under President Obama and Secretary 
Johnson. They built family residential centers where families 
were kept together before their immigration proceedings. It 
took on average about 45 days. At the end of that process--and 
these are appropriate settings that have schoolhouses, they 
have recreational facilities, they have medical centers, they 
have courtrooms on-site. After those proceedings, families 
would know whether they had a valid asylum claim and would be 
allowed to stay in the United States or they would be 
repatriated.
    As soon as those repatriations started happening, the flow 
dropped dramatically from our first border crisis in 2014 with 
families and kids.
    We no longer have that tool. We no longer have that 
authority. Now we have twice the flow coming in a direct 
response to that lack of our authority.
    Mr. Rogers. What could we do to alleviate that problem for 
you?
    Mr. McAleenan. Simply return to the status that we had in 
2014, 2015, allowing families to be kept together in 
appropriate settings during their immigration proceedings.
    Mr. Rogers. Well, my understanding from our meeting 
yesterday is that you are going to provide us language that 
would do that. It is my hope that the Chairman and I can bring 
that before this committee for a vote as soon as possible so we 
can get you some relief.
    Now, in addition to that legislative remedy, what other 
legislative remedies would you like to see us move?
    Mr. McAleenan. So the second issue that is really 
concerning is the unaccompanied children putting themselves in 
the hands of smugglers. Generally, these are teenage boys and 
girls that are being smuggled, $5,000 to $7,000 per person, all 
the way from Central America to our border.
    Right now, they are coming because they are certain they 
will be allowed to stay. They are generally released to 
sponsors here in the United States, generally parents who are 
already here unlawfully. So it is a very challenging cycle that 
we are facing.
    What the administration is proposing, I think, is very 
balanced and very appropriate to protect children, offering in-
country refugee processing so that they can access protections, 
if they have a valid claim, at home, without making this 
journey, without being in the hands of smugglers.
    But to make that effective, we also need the ability to 
repatriate children, just like we do for Canada and Mexico, who 
arrive in the United States who do not avail themselves of this 
opportunity or have not been found to have a valid refugee 
claim. I think that is a balance proposal that we would like to 
work with Congress on enacting.
    Those two changes in law will make a dramatic impact in 
this humanitarian crisis.
    Mr. Rogers. Right. I appreciate you.
    My time has expired. I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Texas for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you. I thank the 
Ranking Member for this very important oversight hearing.
    Mr. Secretary, I have a very short period of time, so 
forgive me, but let me first of all say that you are a very 
fine public servant. We have had the opportunity of working 
over the years, and I would hesitate to say decade, because we 
all are very young. So thank you for your service.
    Let me ask you, in the President's budget is $5 billion for 
the wall. Are you here today to defend the $5 billion request 
for the wall?
    Mr. McAleenan. I am defending the entire budget request, 
and that is a request that comes from our front-line agents. It 
is not something we need everywhere on the border, but we need 
hundreds of miles to control critical areas where there is 
infrastructure on both sides and high traffic.
    Ms. Jackson Lee. The $5 billion, as you well know, was 
represented to be coming from Mexico. Is it coming from Mexico?
    Mr. McAleenan. No. It is requested for appropriations----
    Ms. Jackson Lee. So the representation was untrue?
    Mr. McAleenan. I am not characterizing the representation 
as untrue. It is----
    Ms. Jackson Lee. Did the numbers from the border persons 
come at the exact number of $5 billion?
    Mr. McAleenan. So that is the amount that we can 
effectively apply in a given year with contracts----
    Ms. Jackson Lee. This is the President's request?
    Mr. McAleenan. Yes. We actually need about $18 billion for 
the top----
    Ms. Jackson Lee. In his request or in his budget as well, 
let me indicate that he has cut $600 million from first 
responder Homeland Security grants. I want my firefighters to 
hear this very clearly, because I will oppose it extensively. 
The U.S. Coast Guard is cut $864 million; surface 
transportation programs, $57 million, or 44 percent; and 
cybersecurity, which is known to have impacted the 2016, 2018 
elections, have been cut by $40 million.
    Are you here to defend those cuts, Mr. Secretary?
    Mr. McAleenan. So on the side of the grants, Congresswoman, 
what I have understood is that we have deployed $50 billion in 
Homeland Security grants over the past decade to----
    Ms. Jackson Lee. But here you are to defend the $600 
million cuts to our firefighters and other first responders 
across the Nation?
    Mr. McAleenan. So I am defending the President's budget and 
explaining that we have had a number of grants go to build up 
capability across the country and that we have----
    Ms. Jackson Lee. I thank you. My time is short, Mr. 
Secretary, and I appreciate it. I indicated I appreciate your 
service.
    We now have a list of the numbers of children that have 
died in custody. We should all be outraged. A 16-year-old boy, 
Mr. Hernandez Vasquez; Juan De Leon, 16; 7-year-old, 8-year-
old, 2-year-old, and there may be others.
    These are the conditions that individuals, human beings, 
are living in. I understand the crisis. Might I say, I have 
been to the border many, many times and as well understand that 
it is not tweets; it really is going and seeing it for 
yourself. I have seen it. I have spoken to people. I have 
spoken to a mother who gave birth 45 days and had not been to 
the hospital, and your CBP staff agreed with me to take her to 
the hospital.
    But my question is--I believe there should be an internal 
task force set up dealing with children, dealing with 
children's death. My question to you is, will you set up an 
internal in-house task force to deal with not--you know, the 
individuals that are there now, and as you know, you have 
nobody hardly there--to deal with these deaths, to find what 
solutions should be put in place?
    My second question would be what you are doing about added 
medical staff there at the border. If you would do that quickly 
because I have another question, please, sir.
    Would you set up an internal task force to deal with this 
crisis----
    Mr. McAleenan. Very quickly----
    Ms. Jackson Lee [continuing]. Of children's deaths?
    Mr. McAleenan. I agree, Congresswoman, those conditions are 
not acceptable. That is why we have asked for additional 
support from Congress to address it. In El Paso alone, we have 
55 medical professionals on board----
    Ms. Jackson Lee. Would you agree to add more, please, sir?
    Mr. McAleenan. It is a constant focus. That is the primary 
focus----
    Ms. Jackson Lee. Would you agree for the internal task 
force?
    Mr. McAleenan. We already have internal task forces working 
these issues.
    Ms. Jackson Lee. All right. Who are they? Would you give us 
the names of those individuals, please.
    Mr. McAleenan. I will absolutely provide those to the 
committee.
    Ms. Jackson Lee. That is called an internal task force 
dealing with children's death? The American people are 
outraged.
    Mr. McAleenan. I share their outrage.
    Ms. Jackson Lee. Let me finish my other question. First of 
all, I hope you look into the case of Laura Elizabeth 
Maradiaga-Alvarado, who was deported as an 11-year-old in my 
Congressional district. We saved her. Her family is seeking 
asylum, they have reason, from El Salvador, and we believe that 
the DHS and your humanitarian status can help her with that.
    My last thing is, aviation is important. TSA needs jobs, 
needs personnel. They are the front line of aviation security, 
not safety.
    Mr. Secretary, your position on making sure that the 
Transportation Security Agency has all the staff they need to 
protect the aviation system in this Nation and internationally.
    Mr. McAleenan. Absolutely required. That is why I support 
the budget and the increase of TSOs that it contains.
    Ms. Jackson Lee. I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    At the outset, let me share the Chairman's thought of what 
a privilege it has been to work with you, Mr. Secretary. In my 
dealings with you, you have been extremely responsive and 
courteous, and I thank you for that and also for your years of 
service.
    I am going to focus on two issues. One is, I keep trying to 
remind everyone that this committee began after 9/11. It was 
originated mainly for the purpose of counterterrorism. 
Obviously, immigration is vital, and I support what you are 
trying to do.
    On the issue of counterterrorism, though, the fact is, 
beginning under the Obama administration and the first 3 
budgets of the Trump administration, there have been dramatic 
cuts in the money going to police and fire. Like in New York 
alone, there are over 1,000 police officers working full-time 
on counterterrorism. To me, there is no way we can absorb those 
cuts. In each of these years, the money has been restored, both 
in the Obama administration and under the Trump administration. 
Again, I am hopeful that that money will be restored again. But 
I hope that that doesn't indicate any diminution of interest by 
the Department as far as cooperating and working to stop a 
terrorist attack.
    My district lost over 150 people on 9/11. We still have 
people dying from 9/11 illnesses. To see that kind of money 
being cut out, which would really undercut the police 
counterterrorism and intelligence units in New York--I am not 
trying to make this parochial, but that was why the Department 
was created.
    So I just--again, I don't mean this in a pandering way, but 
if you can just acknowledge that this is still a prime focus of 
the Department; and if the money is restored, the money will be 
spent properly by the Department?
    Mr. McAleenan. I can confirm both of those things. I mean, 
Congressman, we appreciate your long expertise and support on 
the counterterrorism mission. My second trip as Acting 
Secretary was to New York to highlight the CT issues. I visited 
the 9/11 museum again just to get refreshed and focused on our 
mission and requirements. It does not reflect any lack of 
priority for the Department in this mission set. It remains why 
we were created, our top priority for the American people, and 
we are going to continue to stay focused on it and be effective 
at it.
    Mr. King. Thank you, Secretary.
    On the issue of MS-13, this was particularly vital in my 
district. From the fall of 2015 until April 2017, we had 25 
murders carried out by MS-13. These are the most brutal type of 
murders, people being hacked to death, beheaded. It was 
absolutely horrible.
    Since the administration got actively involved, there has 
not been 1 murder in the last 2 years. It is a story that is 
not really reported. But the increase in HSI, the increased 
number of prosecutors by the administration, the new technology 
going to the police has been extremely effective. Now, MS-13 is 
down, but they are not out, and they are still a very potent 
force.
    On the issue of unaccompanied minors, it was the Suffolk 
County Police Commissioner, who, by the way, was appointed by 
an Democratic administration. This is not a partisan issue. He 
was the one who first came to me to show the direct correlation 
between unaccompanied minors and MS-13, that many of these 
young people--maybe it is only 3, 4 percent, but it is 3, 4 
percent of a big number--were either sent across by MS-13 or 
the sponsoring families were either MS-13 families or families 
who had relatives back in El Salvador who were being 
threatened.
    In a recent murder indictment, 7 of the 11 who were 
indicted for the murder were unaccompanied minors. They had 
come across the border in just the last 4 years as 
unaccompanied minors.
    Schools like in Brentwood and Central Islip, students were 
put in there, and they were never told by DHS or by ORR or HHS 
that these children were unaccompanied minors. They were not 
given any background on the criminal history of them or their 
families that were taking them in. I know there is a memorandum 
of understanding with you and HHS, I guess, and ORR.
    Can you say whether or not, as a result of the 
investigations, the vetting that will be carried out of the 
minors and their families, will the local police and school 
districts be made--you know, will that info be made available 
to them?
    Mr. McAleenan. So thank you, first, for your comments on 
the work of ICE and HSI to address public safety threats in our 
country and specifically in communities affected by MS-13. That 
is going to continue to be a priority and focus for the 
Department.
    We are very worried about gangs exploiting this crisis. To 
send unaccompanied children, teenagers, who they have already 
recruited into the United States, that can go through our 
process and be released to a sponsor here in the United States 
with an intent to join a gang, that is a serious concern. We 
also see families bringing children who are not their own, 
3,500 cases of fraud this year.
    We have an HSI team that has been on the border for 2 weeks 
working these issues in El Paso and RGV alone. They found--500 
interviews, they found 165 cases of fraud. They are getting 
prosecutions of these adults that are bringing families in, and 
we are seeing, unfortunately, even child recycling, children 
being brought across twice.
    You mentioned the critical partnership with HHS. We did 
have an MOA on information sharing that has been suspended by a 
rider in the appropriations bill. That diminishes our ability 
to provide security. It diminishes our ability to share 
information on the sponsors who are picking up children on 
their immigration status, on their potential criminal history, 
and that is a barrier that should not be there because it is 
critical.
    Last point I will make is the attorney general just went to 
Central America to focus on the anti-gang initiatives and the 
collaboration between the Department of Justice and authorities 
in El Salvador and elsewhere. That has been a very effective 
tool because we are getting additional information on criminal 
records and gang history in Central America that we can then 
apply at the border and in concert with our DOJ counterparts. 
We need to keep that up.
    Mr. King. My time has expired. I would just emphasize that 
a number of those murders, brutal, brutal murders were carried 
out by accompanied minors.
    Thank you.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Mexico, Ms. Torres Small.
    Ms. Torres Small. Secretary McAleenan, thank you for your 
service and for stepping up at a time that is challenging all 
of us.
    I only have 5 minutes, and we have a lot of work to do, so 
I appreciate the efficiency in your responses so far and ask 
that you continue.
    Rio Grande Sector has the largest number of apprehensions 
for families and unaccompanied minors, correct?
    Mr. McAleenan. Correct.
    Ms. Torres Small. El Paso Sector is second?
    Mr. McAleenan. Correct.
    Ms. Torres Small. Yuma is third?
    Mr. McAleenan. Correct.
    Ms. Torres Small. OK. So we have received notification that 
CBP is working with ICE to provide aircraft flights and bus 
transportation for unprocessed families--or migrants from Rio 
Grande Valley and Yuma Sectors to other lower-level sectors, 
right?
    Mr. McAleenan. Right.
    Ms. Torres Small. Why isn't El Paso receiving the same 
service?
    Mr. McAleenan. They are on the list. There is going to be a 
flight from El Paso this week.
    Ms. Torres Small. We received clarification this morning 
that that flight was only a stopover for refueling. Is that 
inaccurate?
    Mr. McAleenan. I am told by CBP that they have a flight 
going to San Diego Sector where we have some additional 
capacity. I will follow up on that, Congresswoman.
    Ms. Torres Small. That would be amazing. If there is any 
way we can do that, I deeply appreciate that it is something 
you note is important.
    Mr. McAleenan. Yes.
    Ms. Torres Small. Great.
    Mr. McAleenan. El Paso has seen the starkest increase in 
family units, as you know.
    Ms. Torres Small. Absolutely. Thank you for recognizing 
that and responding to it.
    Pivoting quickly to Border Patrol OR releases. After Border 
Patrol processes family units, what are the steps that CBP 
takes to decide when and where large groups are released?
    Mr. McAleenan. Yes. So this is something we have to work 
closely with local communities, with nongovernmental 
organizations. We want to make sure there is capacity in the 
transportation system or in the NGO's to house people 
effectively so that we are not leaving them in situations that 
are--that are uncomfortable and unacceptable.
    Ms. Torres Small. Thank you so much for saying that. I 
truly believe that you understand the challenges that the 
communities I represent are experiencing.
    Is there a requirement to do that consultation with NGO's 
and local governments?
    Mr. McAleenan. That is CBP policy. That is our expectation 
of our field leadership.
    Ms. Torres Small. Thank you. Is it--is it a requirement or 
just expectation?
    Mr. McAleenan. It is a stated direction from the chief of 
the Border Patrol and the executive assistant commissioner for 
field operations.
    Ms. Torres Small. Great. Is there a time--a time amount for 
advanced notice that is provided in that direction?
    Mr. McAleenan. As much as can be provided so that it can be 
effectively coordinated. Sometimes a situation of the numbers 
in custody mandate a quicker action. We are also sometimes not 
having the right point of contact. I have got some feedback 
from a New Mexico senator yesterday on these issues, and we are 
going to be tightening that coordination.
    Ms. Torres Small. Great. To any extent, if you could set a 
minimum amount of time of notice, that would be very helpful.
    Mr. McAleenan. I think we can set an expectation, but we 
wouldn't want to direct from Washington all field situations 
operationally.
    Ms. Torres Small. So speaking to that, who ultimately makes 
the decisions of when and where a release occurs?
    Mr. McAleenan. Those would be the sector chief locally.
    Ms. Torres Small. Are there directives that come from 
Washington advising on when and where?
    Mr. McAleenan. Yes. As I mentioned, we have given guidance 
to the field on our expectations for coordination.
    Ms. Torres Small. Thank you.
    So now to migrant processing. In conversations with both 
ICE and then CBP, it is apparent that both agencies believe 
that neither of them should be responsible for processing 
asylum seekers. Border Patrol says that ICE has the better 
resources for processing. CBP--or ICE believes that Border 
Patrol has the responsibility because they are the first to 
encounter migrants. This disconnect seems to exacerbate 
scarcity in resources and it seems to stem from a lack of 
leadership saying simply who is responsible.
    So, Mr. McAleenan, what agency is responsible for 
processing asylum seekers?
    Mr. McAleenan. So, actually, the CIS, if you are talking 
about doing an asylum officer interview.
    But just to clarify, I think I want to get to the point of 
your question. As I am Acting Secretary, we are going to handle 
this as a team. This is a mission that has overtaxed CBP, ICE, 
CIS, HHS, and the Department of Justice immigration courts. We 
are--no element of that system is adequately resourced for the 
flow that we are seeing. So we have to address it as a team. We 
are seeing that with our transportation.
    In El Paso Sector, which you are most familiar with because 
it covers New Mexico, the transportation is done exclusively by 
CBP. Originally, the intent was for ICRO to handle 
transportation. We are filling gaps, working together, and that 
is my expectation.
    Ms. Torres Small. I appreciate that. But clarity is also 
helpful for working as a team. So is there a clear directive of 
who is responsible for putting together the paperwork and the 
notice to appear?
    Mr. McAleenan. So depending on the local area, the 
available resources, we are going to try to apply the best 
effort to that.
    The Border Patrol is supposed to be on the border doing 
interdictions. ICE is supposed to be doing processing and 
removal or interior enforcement. Right now, they are both----
    Ms. Torres Small. ICE supposed to be doing processing?
    Mr. McAleenan. Well, generally, yes. But right now, they 
are both handling the processing of family units, depending on 
the station or sector.
    Ms. Torres Small. So there is no directive right now about 
who--even to specific areas, there is no specific directive?
    Mr. McAleenan. The directive is to work together to get 
this mission done as efficiently and as effectively as 
possible.
    Ms. Torres Small. Thank you.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service, sir, and thank 
you for maintaining your professional bearing, despite some of 
the tone you face today.
    My colleagues across the aisle mentioned the word 
``squander'' regarding the President's budget. While the 
American Treasury is certainly subject to close scrutiny by the 
American people that provide it, the American people certainly 
do recognize the well-established fact that politicians and 
bureaucrats in the District of Columbia squander the money 
seized from the paychecks of working Americans. However, the 
citizenry does not consider National security, homeland 
security, to be a waste of money.
    I can name scores of Federal expenditures that squander the 
people's treasure. But securing our borders and maintaining our 
very sovereignty is perhaps the single most important mission 
the Federal Government should accomplish and is certainly not 
squandering.
    Decisions regarding the essential needs of law enforcement 
to secure our homeland should be determined by the Department 
of Homeland Security, law enforcement professionals, not by 
career politicians in the District of Columbia and unknown, 
unelected bureaucrats.
    So thank you, sir, for representing those law enforcement 
professionals and their needs today.
    I ask you, is the Department of Homeland Security making 
progress toward achieving operational control of our Southwest 
Border?
    Mr. McAleenan. We are. Through a combination of the 
investments in 2018, the received funding in 2019, the border 
barrier is going to make a big impact----
    Mr. Higgins. Roger that. Would the President's budget, as 
submitted, if approved by this Congress, would it help you to 
accomplish a mission?
    Mr. McAleenan. Absolutely. It would accelerate our efforts.
    Mr. Higgins. Thank you, sir. Since President Trump entered 
office, how many replacement miles, secondary miles, or new 
linear miles of enhanced physical barrier system have been 
funded on the Southwest Border, and how many have been 
completed or are currently being built? Give us an idea of 
that, please.
    Mr. McAleenan. Sure. So out of the $3.6 billion in fiscal 
year 2017, 2018, 2019 funding and money from the Treasury 
Forfeiture Fund, we are applying that currently to fund a total 
of 336 miles of border wall.
    Mr. Higgins. You are getting the job done, sir----
    Mr. McAleenan. Yes.
    Mr. Higgins [continuing]. With the money that has been 
provided?
    Mr. McAleenan. We are going to get part of the job done.
    Mr. Higgins. Roger that.
    Mr. McAleenan. We have asked for more.
    Mr. Higgins. And you need, as a law enforcement 
professional, as the Secretary of the Department of Homeland 
Security, in charge of securing our Southern Border and the 
sovereignty of our Nation, do you concur with the budget 
request as it has been submitted?
    Mr. McAleenan. I absolutely do. This request comes from our 
men and women on the ground that----
    Mr. Higgins. As it should.
    The approximately 300 miles for fiscal year 2020 budget to 
be prioritized along the Southwest Border, that is my 
understanding. Can you explain why?
    Mr. McAleenan. Why it would be prioritized?
    Mr. Higgins. Why that money would be prioritized for an 
enhanced physical barrier along the Southwest Border 
particularly. Explain to the American people why, please.
    Mr. McAleenan. Yes. The Southwest Border has two dynamics 
on the border security front. We have got 30,000 to 40,000 
people a month trying to evade capture crossing that border, 
and we have increasing amounts of drug smuggling. We are 
talking about hard narcotics, potent opioids, like Fentanyl, 
synthetic opioids, that are killing Americans in communities 
all over the country.
    Mr. Higgins. Many Americans are dying from this poison 
pouring across our border. I would concur.
    With enhanced physical barriers, as requested by the 
Department of Homeland Security and evaluated as necessary by 
the law enforcement professionals on the ground, do you concur 
that enhanced physical barriers will help you accomplish your 
mission?
    Mr. McAleenan. Yes.
    Mr. Higgins. Thank you.
    What technological advancements along the borders have been 
implemented generally, and how will the fiscal year 2020 budget 
further those investments?
    Mr. McAleenan. I will make two--three key points on that. 
One, every mile of border barrier comes with technology. It 
comes with fiberoptic sensors, cameras, lighting. It is not 
just a dumb wall. It is fully supported by technology that 
tells our agents what is happening in those areas.
    Second----
    Mr. Higgins. You said something. It is indeed a, quote/
unquote, smart wall, is it not, good sir?
    Mr. McAleenan. Indeed. No question. It is a smart barrier.
    Second, the 2020 budget would continue to fund our 
innovative tower effort to provide surveillance capability in 
those areas where we don't have border barrier to extend our 
view of the border and to cue agents on where to respond.
    Third, it would put sensors in aircraft that are higher 
resolution and that are modernized that help surveil the border 
from the air.
    Mr. Higgins. Thank you, Mr. Secretary.
    Yes or no, if Congress passed a law correcting the flaws 
and loopholes in the Flores settlement, would that help us 
control this flow?
    Mr. McAleenan. That would help dramatically.
    Mr. Higgins. Thank you, sir.
    I yield, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady form Illinois, Ms. 
Underwood.
    Ms. Underwood. Thank you, Mr. Chairman.
    Acting Secretary McAleenan, you told MSNBC that families at 
the border are being separated in a humane and civilized way. 
Let me tell you, sir, that the people of Illinois' 14th 
District do not think that this policy is civilized. As a 
nurse, I can tell you that it is definitely not humane. We know 
that there are alternatives like family case management that 
keep our country safe and secure without traumatizing innocent 
kids.
    Yes or no, can you commit that DHS will not restart family 
separations under your leadership?
    Mr. McAleenan. So the President of the United States has 
said that we are not looking at doing that again.
    Ms. Underwood. So under your leadership----
    Mr. McAleenan. There is an Executive Order in place that 
says we are not going to--take zero tolerance prosecutions--not 
family separations, but prosecuting adults that are violating 
the law and resulted in separations, we are not going to 
restart that right now.
    Ms. Underwood. OK. So you have made a commitment that you 
will not restart family separations under your leadership?
    Mr. McAleenan. So I think the President's statement 
suffices as a commitment for the administration.
    Ms. Underwood. OK. Now, I want to know whether you are 
aware of what family separation does to children's mental and 
physical health. I only have 5 minutes. So for these questions, 
I am looking for a yes-or-no answer, sir.
    Are you aware of research showing that family separations 
causes trauma that can do both immediate and long-term damage 
to children's health? Yes or no.
    Mr. McAleenan. So what--you are asking questions about 
something that is not happening, Congresswoman. So the 
separations that are occurring now are only in result for 
family--of the prosecution of the adult for a serious criminal 
offense----
    Ms. Underwood. I am not asking about that, sir.
    Mr. McAleenan [continuing]. Welfare of the child, 
communicable disease----
    Ms. Underwood. Excuse me. Reclaiming my time. That was not 
the line of questioning.
    My questioning was, are you aware of the impact of family 
separation and the trauma on children's long-term physical and 
mental health?
    Mr. McAleenan. OK. Again, you are asking about something 
that we are not doing. So I am not sure this line of 
questioning is going to be effective.
    Ms. Underwood. I am not asking are you doing it, sir. The 
question is, are you aware--are you, sir, as the Acting 
Secretary of DHS, aware of research that shows that family 
separation causes trauma?
    Mr. McAleenan. Yes. I have talked to Dr. Colleen Kraft of 
the American Association of Pediatricians. I am aware of the 
research and----
    Ms. Underwood. Thank you.
    Mr. McAleenan [continuing]. And we solicit support and 
input from pediatricians in managing our responsibilities at 
the border.
    Ms. Underwood. Right. Are you aware that the trauma of 
family separation is connected to something called toxic 
stress?
    Mr. McAleenan. Yes. Again, you are asking about something 
we are not doing.
    Ms. Underwood. Right. But you are aware?
    Mr. McAleenan. Yes, I am aware of the research, as I noted.
    Ms. Underwood. And then are you aware that toxic stress can 
actually change a child's brain because it is still developing? 
Yes or no.
    Mr. McAleenan. I read the study.
    Ms. Underwood. OK. Great. Are you aware that the effects of 
these traumas are cumulative, that they get worse the longer 
the trauma goes on?
    Mr. McAleenan. I think I have answered this line of 
questioning.
    Ms. Underwood. Yes.
    Mr. McAleenan. I have already said I am familiar.
    Ms. Underwood. OK. Are you aware that the traumatic effects 
don't go away even if a child is reunited with their family?
    Mr. McAleenan. Again, you are asking about something we are 
not doing. So, yes, I am aware, and it is not being done.
    Ms. Underwood. Are you aware that family separation can 
lead to behavioral changes and learning delays for children?
    Mr. McAleenan. I think I have answered this line of 
questioning. I have already answered. You are talking about the 
same research.
    Chairman Thompson. Mr. Secretary, just answer the question 
yes or no. I am probably the most reasonable Chairman. Just 
answer the question. Just say yes or no.
    Mr. McAleenan. I have already answered yes, Mr. Chairman. 
It is the same study that she is citing, different parts of it. 
So if I have acknowledged that I am familiar with it, that is 
probably sufficient.
    Chairman Thompson. It is not.
    Mr. McAleenan. OK.
    Ms. Underwood. Yes, you are aware?
    Mr. McAleenan. Yes.
    Ms. Underwood. OK. Are you aware that family separation can 
lead to behavioral changes and learning delays for children?
    Mr. McAleenan. Yes. I have read the study.
    Ms. Underwood. OK. Are you aware that increases a child's 
risk of heart disease, diabetes, and cancer?
    Mr. McAleenan. Yes. I have read the study.
    Ms. Underwood. OK. Are you aware that increases a child's 
risk of anxiety, depression, and substance abuse?
    Mr. McAleenan. Yes. I have read the study.
    Ms. Underwood. Great. In fact, the American Psychological 
Association reports that, ``family separation is on par with 
beating and torture in terms of its relationship to mental 
health.''
    Are you aware of that?
    Mr. McAleenan. I am familiar with this information. Thank 
you.
    Ms. Underwood. OK. The truth is, sir, that family 
separation does irreparable damage to children while doing 
nothing for our National security. It is immoral, it is un-
American, and it is just plain wrong.
    I am glad to hear you say that it is not happening, sir. 
But I went to the border last month, and I was truly shocked by 
the conditions that I saw there. Medical--medical care was 
inconsistent, at best, and the accommodations were inadequate. 
Just last week, we saw new photos of detained children sleeping 
outside on the dirt at a Border Patrol station in McAllen, 
Texas. And on Monday, we learned that a fifth migrant child 
died in custody since family separation began. These stories 
are appalling, and yet they keep happening.
    Now, Congress just provided half a billion dollars in 
February to address the humanitarian crisis at the border and 
will soon provide more. Why do these tragedies keep happening?
    Mr. McAleenan. So they are happening because the crisis is 
exceeding the resources provided. That is why we have asked for 
more, and we have asked for more authority to deal with it to 
prevent this crisis from happening in the first place and from 
the children being put at risk.
    We have deployed the funding from fiscal year 2019 that 
Congress has authorized. We have increased our temporary 
facilities by 500 beds in Donna, by 500 in El Paso. We have got 
3 additional soft-sided facilities coming on-line in June. We 
have deployed medical practitioners. We now have over 100 
certified medical practitioners in our two busiest sectors.
    We have asked----
    Ms. Underwood. Right, but people keep dying, sir.
    Mr. McAleenan [continuing]. For more money to extend that.
    Ms. Underwood. People keep dying. So this is obviously more 
than a question of resources. Congress has been more than 
willing to provide the resources and work with you to address 
the security and humanitarian concerns.

           *       *       *       *       *       *       *

    [Remarks removed.]
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    Mr. McAleenan. That is an appalling accusation. Our men and 
women fight hard to protect people in our custody every single 
day.
    We have asked for these resources 3 weeks ago. It hasn't 
been responded to by Congress. We have asked for changes in 
authorities for the last 3 years that would have prevented this 
from happening.
    Mr. Rogers. Mr. Chairman, I ask to be recognized.
    Chairman Thompson. The gentlelady's time has expired. The 
gentleman asked to be recognized.
    Mr. Rogers. I ask--I make a motion that the lady's words be 
taken down.
    Chairman Thompson. The motion dies for lack of a second. 
Already died.
    The gentleman from New York is recognized for 5 minutes, 
Mr. Katko.
    Well, counsel asked me to ask Ms. Underwood to clarify her 
statement for the record.
    Ms. Underwood. I will be happy to, Mr. Chairman.
    I said that this is more than a question of resources. 
Congress has been more than willing to provide resources and to 
work with you, Mr. Secretary, to address these security and 
humanitarian concerns.
    I yield back.
    Mr. Rogers. Mr. Chairman, you cannot impugn the character 
of the witness by stating that he intentionally murders 
children. That is completely inappropriate, and her words 
should be taken down. She was very explicit.
    Chairman Thompson. I asked her to rephrase it. She just 
did.
    Mr. Rogers. She did not, she restated it.
    Ms. Underwood. I restated. I restated. I did not say 
murder. I said that 5 children have died as a result of a 
policy choice that he----
    Mr. Rogers. You said it was intentional. That is murder.
    Ms. Underwood. Excuse me, sir. I am still talking.
    He has said that he stands by the policy decisions of this 
administration. That is what he said at the beginning of his 
testimony.
    Mr. McAleenan. I did not say that at all.
    Ms. Underwood. And he says he stands by the budget request. 
This is a policy choice----
    Mr. Rogers. He said the policy is they stopped those 
detentions. They don't do any of those separations. He has made 
that clear repeatedly. You refuse to listen to him. That is not 
the point. You said he intentionally supported policies that 
caused the death of children. That is wrong. Your words need to 
be taken down.
    Mr. Chairman----
    Ms. Underwood. No. Mr. Ranking Member, this happened this 
week. Yesterday another child died under his leadership.
    Mr. Rogers. Because we can't get the resources to help 
them. That is what he is here trying to get is the money to 
stop this.
    Chairman Thompson. Well, the Chair will call for a vote. I 
will not take the vote to take down the words. We will ask----
    [Discussion off the record.]
    Chairman Thompson. Well, thank you very much. The Chair 
rules that the language is appropriate and that it should not 
be taken down.
    Mr. Rogers. I would like a recorded vote.
    Chairman Thompson. Request for a recorded vote has been 
called. We will ask the clerk to call the roll.
    The Clerk. Ms. Jackson Lee. Ms. Jackson Lee.
    [No response.]
    The Clerk. Mr. Langevin.
    Mr. Langevin. No.
    The Clerk. Mr. Langevin votes no.
    Mr. Richmond. Mr. Richmond.
    [No response.]
    The Clerk. Mr. Payne. Mr. Payne.
    [No response.]
    The Clerk. Miss Rice.
    Miss Rice. No.
    The Clerk. Miss Rice votes no.
    Mr. Correa. Mr. Correa.
    Chairman Thompson. Hold on. We need to make sure that 
people understand the vote.
    The vote is sustaining Ms. Underwood's--let me read the 
language.
    [Discussion off the record.]
    Chairman Thompson. According to the Chair, the committee 
stands in recess, subject to the call of the Chair.
    In the interest of--for what purpose does the gentleman 
seek recognition?
    Mr. Rogers. Mr. Chairman, I appeal the ruling of the Chair.
    Chairman Thompson. The gentleman from Alabama moves to 
appeal the ruling of the Chair. The question now appears, shall 
the ruling of the Chair stand and the ruling of the committee?
    Those in favor of opposing the Chair's opinion, vote aye.
    Those opposed, vote nay.
    The clerk will call the roll.
    The Clerk. Ms. Jackson Lee. Ms. Jackson Lee.
    [No response.]
    The Clerk. Mr. Langevin.
    Mr. Langevin. No.
    The Clerk. Mr. Langevin votes no.
    Mr. Richmond. Mr. Richmond.
    [No response.]
    The Clerk. Mr. Payne. Mr. Payne.
    [No response.]
    The Clerk. Miss Rice.
    Miss Rice. No.
    The Clerk. Miss Rice votes no.
    Mr. Correa. Mr. Correa.
    [No response.]
    The Clerk. Ms. Torres Small. Ms. Torres Small.
    [No response.]
    The Clerk. Mr. Rose.
    Mr. Rose. No.
    The Clerk. Mr. Rose votes no.
    Ms. Underwood.
    Ms. Underwood. No.
    The Clerk. Ms. Underwood votes no.
    Ms. Slotkin. Ms. Slotkin.
    [No response.]
    The Clerk. Mr. Cleaver. Mr. Cleaver.
    [No response.]
    The Clerk. Mr. Green of Texas. Mr. Green of Texas.
    [No response.]
    The Clerk. Ms. Clarke. Ms. Clarke.
    [No response.]
    The Clerk. Ms. Titus.
    Ms. Titus. No.
    The Clerk. Ms. Titus votes no.
    Mrs. Watson Coleman. Mrs. Watson Coleman.
    [No response.]
    The Clerk. Ms. Barragan.
    Ms. Barragan. No.
    The Clerk. Ms. Barragan votes no.
    Mrs. Demings. Mrs. Demings.
    [No response.]
    The Clerk. Mr. Rogers.
    Mr. Rogers. Yes.
    The Clerk. Mr. Rogers votes yes.
    Mr. King. Mr. King.
    [No response.]
    The Clerk. Mr. McCaul. Mr. McCaul.
    [No response.]
    The Clerk. Mr. Katko.
    Mr. Katko. Yes.
    The Clerk. Mr. Katko votes yes.
    Mr. Ratcliffe.
    Mr. Ratcliffe. Yes.
    The Clerk. Mr. Ratcliffe votes yes.
    Mr. Walker. Mr. Walker.
    [No response.]
    The Clerk. Mr. Higgins. Mr. Higgins.
    [No response.]
    The Clerk. Mrs. Lesko. Mrs. Lesko.
    [No response.]
    The Clerk. Mr. Green of Tennessee.
    Mr. Green of Tennessee. Yes.
    The Clerk. Mr. Green of Tennessee votes yes.
    Mr. Taylor.
    Mr. Taylor. Yes.
    The Clerk. Mr. Taylor votes yes.
    Mr. Joyce. Mr. Joyce.
    [No response.]
    The Clerk. Mr. Crenshaw.
    Mr. Crenshaw. Yes.
    The Clerk. Mr. Crenshaw votes yes.
    Mr. Guest.
    Mr. Guest. Yes.
    The Clerk. Mr. Guest votes yes.
    Ms. Jackson Lee.
    [No response.]
    The Clerk. Mr. Richmond.
    [No response.]
    The Clerk. Mr. Payne.
    [No response.]
    The Clerk. Mr. Correa.
    [No response.]
    The Clerk. Ms. Torres Small.
    [No response.]
    The Clerk. Ms. Slotkin.
    Ms. Slotkin. Yes.
    The Clerk. Ms. Slotkin votes yes.
    Mr. Cleaver.
    [No response.]
    The Clerk. Mr. Green of Texas.
    [No response.]
    The Clerk. Ms. Clarke.
    [No response.]
    The Clerk. Mrs. Watson Coleman.
    [No response.]
    The Clerk. Mrs. Demings.
    [No response.]
    The Clerk. Mr. King.
    Mr. King. Yes.
    The Clerk. Mr. King votes yes.
    Mr. McCaul.
    [No response.]
    The Clerk. Mr. Walker.
    [No response.]
    The Clerk. Mr. Higgins.
    [No response.]
    The Clerk. Mrs. Lesko.
    [No response.]
    The Clerk. Mr. Joyce.
    [No response.]
    Chairman Thompson. How am I recorded?
    The Clerk. The Chairman is not recorded.
    Chairman Thompson. No.
    The Clerk. Mr. Thompson votes no.
    Mr. Taylor. Mr. Chairman. Mr. Chairman, over here. 
Parliamentary inquiry. So rule XXVII, section 4 of the House 
rules, a Member cannot vote on something that they have a 
direct--that directly impacts them. With great respect to my 
colleague from Illinois, I believe this vote is directly about 
her, so I think respectfully she should withdraw her vote to be 
compliant with rule XXVI, section 4 of the House rules. XXVII, 
excuse me.
    Chairman Thompson. Not a valid point.
    The clerk will announce the vote.
    The Clerk. This vote, there are 9 yeas and 7 noes.
    Chairman Thompson. The words will be taken down.
    The Chair recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you, Mr. Chairman. Before I ask my 
question, I just want to note a personal observation. I was a 
Federal prosecutor down in the El Paso border for years. I 
interacted with agents on a regular basis. These agents were 
shot at, these agents were assaulted. These agents dedicate and 
risk their lives every moment of every day to try and keep this 
country safe. I don't think anyone is intentionally trying to 
commit harm to anyone down there.
    I just hope that moving forward, this committee is reminded 
of the long and storied history of bipartisanship and trying to 
get the job done and trying to keep our country safe, instead 
of making personal things that are unfortunate.
    So with that, I just want to refocus our attention, Mr. 
McAleenan, on a different part of the budget, a part of the 
budget I think is critically important, it is often overlooked. 
I don't know if overlook is the right word but not as 
prioritized as some of the other issues of today, and that is 
cybersecurity.
    As Ranking Member of the Cybersecurity Subcommittee, I see 
every day the vulnerabilities that our country faces in the 
cyber realm. Just yesterday or the day before, I visited the 
CISA section in general, and the CERT teams, and the National 
cybersecurity and technical services area. I was overwhelmingly 
impressed by their ability to get the things done they get done 
with the little resources that they have.
    So if you could, Mr. McAleenan, could you tell us what 
priority the cybersecurity is within the budget and whether 
those, the resources requested are adequate to getting a job 
done? I also--when we finish with that, if you don't touch on 
it yourself, I do want to talk about the cyber work force issue 
and whether or not we are sufficiently addressing the needs of 
the cyber work force.
    Mr. McAleenan. Thank you. I appreciate the opportunity to 
talk about both of those. I would, if appropriate, also 
appreciate the opportunity to outline all the steps we have 
taken to provide increased medical care for children in our 
custody. But focusing on cyber first.
    Mr. Katko. Please do. OK.
    Mr. McAleenan. The $1.3 billion request for the 
Cybersecurity and Infrastructure Security Agency is a 
significant request. For the first time it includes $20 million 
directed to election security, the Protect 2020 initiative. We 
appreciate your visit in support of our men and women in this 
area.
    I have tremendous confidence in the leadership of CISA with 
Chris Krebs, their strategy, both vote for election 2020, but 
also securing the dot-gov infrastructure, and for bringing on 
additional cybersecurity professionals. The additional 
authority, the ability to provide salaries that are more 
competitive, not quite what they can make in the private 
sector, but commensurate with the mission, plus some additional 
funding will allow us to compete for cybersecurity talent. We 
have a good strategy to go out and find and bring those people 
on board swiftly.
    In engaging with private-sector entities that are critical 
partners on the financial infrastructure, for instance, I am 
hearing a lot of very good things about what CISA is doing, 
about our strategy, and I intend to amplify that and support it 
as Acting Secretary. It is an area that I am learning a lot 
about.
    Mr. Katko. I commend the Chairman and my colleagues for 
highlighting this issue in a hearing yesterday. We are going to 
continue to do that.
    Now, if there is something you want to clarify from your 
last round of questioning, please do so.
    Mr. McAleenan. Thank you. I would just note that as we 
started to see more children come into our custody both with 
families and children, last July, we began to divert 
operational resources to address medical care of children. I 
directed that through Border Patrol funding.
    In July, I requested a Homeland Security advisory council 
subcommittee highlight these issues and advise us on family and 
child care in our custody. They have completed an emergency 
report on April 19 that I commended this committee with a 
number of recommendations for both resources and support and 
care requests.
    In December, when we had the first and second deaths of a 
child in our process, for the first time in over a decade, we 
aggressively ramped up our medical care, without the funding. I 
went ahead and authorized additional contracting, additional 
facilities without the funding even there.
    In January, we requested $800 million in humanitarian aid 
as part of the budget package. We got a little bit over half of 
that. I requested $1.1 billion 3 weeks ago. We have requested 
Coast Guard medical teams who have responded and are on-site 
with us at the border. We have the Public Health Service 
Commission Corps providing medical care at the border. We have 
hundreds of medical care professionals that were never in 
Border Patrol stations there now because of actions we have 
taken to try to protect children in our custody.
    I am proud of that record. We are working hard to address 
it. But this crisis exists because of our legal framework, 
because we are inviting the kids to make----
    Mr. Katko. Yes. I don't mean to interrupt. I have a few 
more and just a little time. I just want to make sure I get 
this point clear. Is it fair to say that if we increase budget 
resources for the border area, we can increase even more your 
effort to try and keep these children safe and healthy? But it 
is overwhelming how many people are coming in. Is it fair to 
say more money would definitely help the issue?
    Mr. McAleenan. More money would definitely help, but a 
change in the authorities would help even more.
    Mr. Katko. Thank you very much. I yield back, Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Las Vegas, Ms. Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Secretary, I just would like to follow up with a 
question about Puerto Rico because my numbers aren't exactly 
the same as the President's. It is my understanding that 
roughly $11 million has been spent and $41 billion has been 
allocated for recovery in Puerto Rico. That is a lot different 
from the $91 billion that has been tweeted by the President. So 
I don't know if you can confirm those numbers or dispute them 
or can get back to us?
    Mr. McAleenan. We can get back to you on the numbers.
    Ms. Titus. All right. I hope so, because there is a big 
difference in our numbers and the $91 billion.
    I also share the concerns of Mr. King about the 
antiterrorism component of DHS. You want $5 billion to build a 
wall to kind-of keep out sick children, I guess. Yet at the 
same time, you are cutting $213 million from the UASI grants. 
Las Vegas welcomes over 40 million tourists a year. We had the 
worst shooting in modern history there. We need those UASI 
grants to complement what we do at the local level to fight 
terrorism.
    I wonder how you justify that you can keep up with that 
component of your mission while cutting the funding.
    Mr. McAleenan. So, obviously, the grants in our partnership 
with State and locals are critical to the Homeland Security 
enterprise writ large. In talking with our team that oversees 
the grants at FEMA, my understanding is the $50 billion we have 
deployed over that last decade plus has dramatically increased 
capacity across the board for State and locals and that we are 
looking for shared responsibility. Shared investments with 
communities around the country to maintain their capability, 
while we still have significant funding dedicated through UASI 
grants.
    If there are specific areas of concern, I am happy to look 
at that, to talk it through with the FEMA team and understand 
the levels that we are applying. But this is my understanding 
from looking at the budget with them in hearing their 
recommendations.
    Ms. Titus. Well, I hope you will talk with our sheriff from 
Las Vegas because they are concerned that the fusion center 
that brings in all the first responders that, not only are you 
cutting their funds, but you are now requiring a local match. 
That will put a serious burden, I think, on our capabilities in 
Las Vegas.
    Mr. McAleenan. I understand the concern. I am happy to 
continue that conversation.
    Ms. Titus. Another question that is kind-of not in keeping 
with what has been going on here, but I think it is important 
because of the State I represent is a recent directive that 
y'all issued from your Department that would block legal 
residents from working in the legal cannabis industry. Now, a 
number of States have legalized marijuana in one form or 
another, it is over half the States, and they are moving in 
this direction. You have said that an applicant who is involved 
in certain marijuana-related activities may lack good moral 
character.
    Well, if we use that term, there may be some people 
involved in legal political activities that lack good moral 
character based on some of our judgment. But I just wonder why 
you would come to that conclusion. It is a legal business at 
the State level. It is a highly-regulated business, and because 
it is so security-concerned, I think there is much more 
scrutiny of people who work in this industry than in any other, 
besides gaming, that I can think of in Nevada. How did y'all 
come to that decision?
    Mr. McAleenan. I am actually not familiar with that 
decision process, but I can certainly look into it and get back 
to you. Obviously, there is a difference of viewpoint in the 
enforcement of marijuana laws between the Federal and some of 
the emerging State jurisdictions. But it is something that I 
will look at.
    Ms. Titus. Thank you.
    I am going to ask you one other question. There is a 
tremendous backlog that we hear about with access to 
citizenship, visas, work visas, family visas, humanitarian 
visas, all kind of relief. I think you had a backlog of 2.3 
million cases last year. We have not seen this kind of backlog 
since right after 9/11 when the new security measures were put 
in place, yet you want to transfer $207 million.
    Again, you have an obligation to do something, and you are 
cutting your request for funding while telling this committee 
you need more resources to deal with the crisis. Clearly, 
citizenship and visas are part of that crisis.
    Can you tell us how you justify that and what your plans 
are for getting rid of this backlog?
    Mr. McAleenan. So I am not familiar with the specific cut 
you are referencing, Congresswoman, but I can tell you that CIS 
does have a backlog but is working very hard on this 
processing. They naturalized more people last year than any 
year prior as a record level of efforts in the naturalization. 
We are working on immigrant visas across the board on H-1B, H-
2A programs. So I know we have a growing backlog in asylum 
cases which is driven by this flow at the border, but I think 
they are working very hard as a fee-funded agency to keep up 
with the rest of the naturalization process, et cetera.
    Ms. Titus. It is fee-funded. In fact, $700, which is very 
expensive. Many people can't afford that fee who would like to 
move into different channels, get different visas, perhaps get 
citizenship. So with that kind of fee and this kind of cut, I 
am not sure that you are kind of balancing priorities there or 
have the resources that will work best.
    Mr. McAleenan. I know the fees are assigned based on the 
cost for administering each program and each application. I 
will take a look at the cut issue that you are referencing.
    Ms. Titus. I appreciate that.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman.
    Mr. Acting Secretary, thank you for being here and 
testifying on the President's fiscal year 2020 budget request 
for DHS.
    As you know, President Trump has set an agenda that I 
believe does prioritize the safety and security of the American 
people, an agenda that includes a robust border security 
operation, strong cybersecurity protections, both for our 
networks and for our critical infrastructure, and a 
comprehensive strategy to prevent potential terrorists from 
ever setting foot on American soil. But as you have already 
talked about today, unfortunately we are facing a dire 
humanitarian and security crisis at our Southern Border.
    Border agents in my home State of Texas have provided 
statistics that I just saw yesterday indicating that they are 
averaging 229 migrant apprehensions per hour, or 5,500 per day, 
more than 38,000 per week, and on pace this month to eclipse 
more than 150,000 illegal migrant apprehensions.
    Obviously, one of the main reasons, as you have talked 
about, for this incredible surge in terms of numbers are our 
asylum laws, our asylum laws that have put your Department in a 
bind because your folks can't deliver legal consequences to 
many of the illegal migrants that are apprehended at the border 
because they are either minors or they are with family units 
that have arrived with minors. Because of the legal precedent 
set forth under the Flores settlement, because that precedent 
under Flores says that unaccompanied minors and members of a 
family unit from noncontiguous countries have to be released in 
the United States after 20 days to await immigration 
proceedings.
    We talked about that problem, and I realize that one 
solution to that problem is for Congress to address it. 
Congress absolutely can do that, absolutely should do that. I 
am here to tell that I don't think Congress will do that. I say 
that because some, not all, of my colleagues on the other side 
like the problem better than they like the solution. They like 
to stand up before the American people and say that this 
President and this administration are separating children from 
their families because of inhumane reasons, rather than 
honestly telling them that they are doing so because, under the 
Flores settlement, the law requires that you either separate 
the children or release the entire family in total disregard 
for immigration laws as Congress passed them. So I am not 
waiting on a solution from Congress any time soon.
    My question for you, Mr. Secretary, is the other 
possibility is for DHS to address it administratively. Last 
fall, DHS and HHS proposed new regulations that would 
effectively terminate the Flores settlement agreement and 
replace it with formal regulations governing the apprehension, 
processing, care, custody, and release of minor children. What 
is the status of those regulations?
    Mr. McAleenan. Thank you for asking about that aspect, and 
we are aggressively working on finalizing the Flores rule. What 
it would do is codify the key elements of that settlement for 
over 20 years ago in terms of the care of children in Federal 
custody, but it would also allow us to maintain custody of 
families together pending their immigration proceedings.
    We got over 100,000 comments in that rule that have to be 
responded to to issue a final rule. That is going to be coming 
up in the coming weeks and months. It is going to be released 
and will hopefully allow us to address that part of this issue.
    Mr. Ratcliffe. So what you are telling me, Mr. Secretary, 
is that notwithstanding Congress not willing to act on this 
issue, the Department of Homeland Security is attempting to 
address this crisis at the border through these proposed 
regulations?
    Mr. McAleenan. That is one of the many dynamic actions we 
are taking to try to address this crisis, yes.
    Mr. Ratcliffe. Thank you.
    Another problem that we need to address or part of what 
relates to this issue is the low threshold screening standards 
for migrants to claim asylum. If a migrant successfully asserts 
credible fear, there is a good chance they are likely going to 
remain in the United States. So accordingly, what your folks 
are seeing, I know, are asylum applicants who are very well-
coached, well-coached by coyotes and by immigration advocates 
and others.
    My question to you is: Does this budget provide appropriate 
funding to ensure that DHS is conducting regular fraud risk 
assessments as it relates to affirmative asylum application 
process? Generally, can you address what DHS is trying to do to 
combat asylum fraud and abuse?
    Mr. McAleenan. Thank you for those two questions, 
Congressman. You have highlighted one of the key drivers of 
this crisis. It is the gap between the initial credible fear 
standard in the asylum proceeding and the ultimate asylum 
standard adjudicated by an immigration judge.
    What we are seeing is 85 to 90 percent of people meeting 
that initial bar, a possibility of proving an asylum case, and 
only 10 to 15 percent of Central Americans meeting the actual 
asylum standard at the end of an immigration proceeding. That 
allows people to remain in the United States indefinitely, 
pending an immigration proceeding, and creates a significant 
hold factor that we are grappling with.
    You asked how we are addressing that with fraud prevention. 
First of all, since I became Acting Secretary, we have deployed 
over 100 his agents to the border with forensic interview 
skills to talk to families crossing the border, to identify 
whether there is a family relationship first and foremost. So 
these are targeted based on concerns of fraud to begin with. 
Then to look at whether what they are presenting to border 
agents is accurate. So that is first and foremost.
    Second, we have a fraud detection and National security 
unit at CIS that we now have directed them to really engage on 
the asylum piece of this and to make sure we are following 
through effectively. Ideally, we need to get proceedings 
completed. That is the central problem we have right now is we 
are not getting results from immigration courts that can be 
effectuated because people are not in custody, and that means 
that ICE is left to go out into communities to pick people up 
when it could be much more efficiently done as they arrive at 
the border.
    Thank you for asking that question and allowing us to talk 
more about the problem.
    Mr. Ratcliffe. I appreciate you response, Mr. Secretary.
    My time has expired. I yield back.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes Ms. Barragan.
    Ms. Barragan. First, let me start by correcting the record. 
The separation of children and families didn't happen because 
it was required. That is not why the President did it. This 
administration is on record in saying they did this to deter 
people from coming. So to knowingly separate children and 
families by prosecuting parents that was going to result in a 
separation and then mentally harm children, that is despicable. 
That is why people believe that what this administration is 
doing is intentional. It is a belief based on all the lies that 
Members of Congress have been told, all the lies that have been 
out in the public and from what has been going out into the 
public.
    Let me start. Mr. Secretary, is there a written policy on 
the Remain in Mexico policy?
    Mr. McAleenan. There is a statutory provision. There is----
    Ms. Barragan. Is that policy in writing?
    Mr. McAleenan. Yes.
    Ms. Barragan. Can you provide us that copy?
    Mr. McAleenan. I believe we already have provided to 
Congress, but----
    Ms. Barragan. If you could give it to me, that would be 
fantastic.
    Chairman Thompson. Mr. Chairman, just provide the copy of 
the policy. That is all she is asking you for.
    Mr. McAleenan. OK. Thank you.
    Ms. Barragan. So, Mr. Secretary, you are familiar with that 
policy, correct?
    Mr. McAleenan. I am.
    Ms. Barragan. Under that policy, there are certain groups 
of people that are not eligible to be returned to Mexico. Is 
that correct?
    Mr. McAleenan. That is correct.
    Ms. Barragan. OK. Under that group, unaccompanied minors 
one of them?
    Mr. McAleenan. Correct.
    Ms. Barragan. Cubans?
    Mr. McAleenan. Correct.
    Ms. Barragan. Mexicans?
    Mr. McAleenan. Correct.
    Ms. Barragan. Vulnerable people?
    Mr. McAleenan. Correct.
    Ms. Barragan. Sick, elderly?
    Mr. McAleenan. That is discretionary, but those are 
categories to be considered.
    Ms. Barragan. LGBT?
    Mr. McAleenan. Discretionary, but categories to be 
considered.
    Ms. Barragan. Pregnant women?
    Mr. McAleenan. Same.
    Ms. Barragan. OK. Let me tell you, Mr. Secretary, I either 
was lied to at the border or something has changed. When I was 
at the border in April, I specifically spoke to Officer 
Blanchard with Border Patrol. He told me he was from the 
District of Columbia and he told me he wrote this policy. He 
told me that pregnant women were excluded and not to be sent at 
the border.
    You come in and you talk about how you want to help protect 
children and they are going through this dangerous journey and 
keeping them safe. Well, guess what? This administration is 
putting pregnant women in danger. Do you know how dangerous it 
is to be sent to Juarez, Mexico? Do you?
    Mr. McAleenan. I am familiar with Juarez, Mexico. And what 
the government----
    Ms. Barragan. Let me tell you, Mr. Secretary, as a Member 
of Congress, this is how dangerous it is. I can't go there 
without getting permission. That is how dangerous it is. Then 
if you go to the State Department's website, and we have got a 
little copy of it here for you, it says, Mexico, violent crime 
such as homicide, kidnapping, carjacking. Oh, but then if you 
go to the State Department's specific website on Juarez, it 
asks you to reconsider your travel.
    So it is so dangerous to travel to Juarez that the State 
Department is telling people to reconsider travel because of 
violent crime and gang activities are wide-spread. U.S. 
Government employees, and I quote, ``are required to retain 
prior approval to even go into the downtown area.''
    But this is where you are sending pregnant women, back into 
Mexico while they await their asylum. Do you realize that this 
is happening?
    Mr. McAleenan. So the migrant protection protocol----
    Ms. Barragan. Do you realize that pregnant women are being 
sent back to dangerous parts of countries that our own country 
tells people not to go to, to reconsider their travel? Do you 
realize that is happening?
    Mr. McAleenan. So----
    Ms. Barragan. That is a yes or no.
    Mr. McAleenan. So under the migrant protection protocols, 
we are asking people to wait in Mexico for their immigration 
hearing.
    Ms. Barragan. OK. I am going to reclaim my time. Because 
this is what the American people need to know: A, I was lied to 
at the border, and this is why there is no credibility with 
this administration. That is why there is no credibility.
    All right. Let me move on for a moment. The 72-hour rule. 
Are you familiar with the 72-hour rule?
    Mr. McAleenan. Which one?
    Ms. Barragan. Well, the one that basically says that within 
72 hours, children need to be--they need to be processed and 
turned over.
    Mr. McAleenan. You are talking about the Trafficking 
Victims Protection Reauthorization Act rule for unaccompanied 
children?
    Ms. Barragan. Yes. The 72-hour rule, sir. Do you know how 
disturbing it is when the largest law enforcement agency in 
this country is not even following the law?
    Mr. McAleenan. Well----
    Ms. Barragan. It is disturbing. You are not following the 
72-hour rule, as we know, because you just had a 16-year-old 
child die that was being held for a week. People are being 
turned away at the border when they present themselves at the 
ports of entry. How do I know? I have been there. You have 
agents who are treating people like animals and in person 
telling them how terrible they are. How do I know? I have been 
there first-hand. We just saw the text messages, and an agent 
then hits a migrant. Is this how to be treating people who are 
escaping violence? Of course not.
    So why do people think this administration is intentionally 
harming children? Well, let's just look at the facts. Look at 
all the lies. Look at the harm done to children and their 
mental health. Look at the children that are dying under your 
watch. You just said, Mr. Secretary, you are proud of your 
record. That is despicable to say. You should not be proud of a 
record of having 5 children die under your watch.
    I yield back.
    Chairman Thompson. The Chair----
    Mr. McAleenan. Mr. Chairman, could I respond to any of that 
last segment?
    Chairman Thompson. I think the lady made her own statement.
    The Chair recognizes the gentlelady from Arizona, Mrs. 
Lesko.
    Mrs. Lesko. Thank you, Mr. Chair.
    Thank you, Mr. Secretary, for being here. I have 5 minutes, 
but I will yield you some time to answer, respond to what Ms. 
Barragan said.
    Mr. McAleenan. The one important part of what that last 
segment was that the 72-hour rule, where we try to transfer 
children to HHS custody within 3 days of their arrival, that is 
a critical protection for children. That is why this 
administration has asked for $3 billion additional for HHS to 
provide additional bed space so that we can transfer 
unaccompanied children in a timely fashion. That is a critical 
part of our supplemental request, and we would appreciate if 
Congress would consider it.
    Mrs. Lesko. Thank you.
    Members, you know, I--as you know, I am from a border 
State, from Arizona. I have been to the border. I have also 
been to a facility where they shelter unaccompanied children. I 
know that there is a crisis. Everybody in Arizona, everybody in 
the Nation, it seems, knows there is a crisis at the border. It 
is not only to our security, but it is a humanitarian crisis.
    When I had the previous Secretary here, she said girls as 
young as 11 years old were getting pregnancy tests because of 
what the cartels do and what happens on this long journey. 
Instead of blaming the United States--when I have seen these 
Border Patrol Agents help these children, they go out of their 
way to help children, help families. They are good people.
    Wouldn't you say that it is actually the cartels that are 
encouraging these people to travel thousands of miles to 
exploit our loose immigration laws and asylum laws and are 
charging them, what, $6,000 a child, wouldn't you say we should 
place the blame on them instead?
    Mr. McAleenan. I absolutely agree, Congresswoman. It is a 
$3 billion industry now for the most violent criminal 
organizations in our hemisphere. They are exploiting vulnerable 
people from Central America to our border, and it is 
unacceptable.
    Mrs. Lesko. I agree, Mr. Chairman and Members, it is 
totally unacceptable. That is why I am so supportive and 
appreciate everything the President has done to try to mitigate 
this crisis, not only a security crisis to our Nation, but also 
a humanitarian crisis for the migrants themselves. I mean, he 
has tried every which way to do what he can, and I appreciate 
that so much. That is why I will support this extra funding, 
because it is very obvious to me that it is needed. It is 
needed to help these migrants, to help with the security. We 
also need to pass good immigration laws.
    So last year I supported, I co-sponsored and voted for, 
what I thought was a compromise that we could actually get 
something done. That was we not only, you know, had a bill that 
would have helped secure the border, it would have changed some 
of our asylum laws, but it also would have given DACA 
recipients legal status. I just came from Judiciary Committee. 
They are trying to push through a bill, the Dreamer Act bill. 
But unfortunately, in that bill, it has no age limits, it 
allows people that have crimes, it allows people that 
fraudulently fill out their application to be here. So to me 
that is a big concern.
    I want to switch, because I only have 1 minute 24 seconds 
left, and that is on a committee hearing we had yesterday, it 
is a subcommittee hearing, and there was concern by a number of 
Members that DHS employees were being diverted to the border, 
on a voluntary basis, to help with the crisis at our border. So 
I was told by staff today, just so that we correct what 
happened yesterday with some of the words, is that no TSO 
officers, no Transportation Security Officers that are on the 
front line of our airports are actually being diverted or 
deployed to the border right now.
    So I guess my question is would this money that you are 
asking for actually help so that we don't have to divert people 
from other security details to the border?
    Mr. McAleenan. It would. It would help us with our 
partnership with DOD. It would help us with our law enforcement 
surge assets that are going to the border, including TSA 
Federal air marshals that are part of our VIPR teams that are 
mobile in the first place and that have deployed to the border 
to help us. But it will also support volunteers from across the 
Department. Just like we respond to a natural disaster or 
storm, we have asked for volunteers to come help, help us care 
for people in our custody. Let our agents get back to our 
border security mission, help them process more efficiently.
    One thing I didn't get to explain on the medical side is 
that every day, we are taking 65 people to the hospital. That 
means we have agents and officers on hospital watch duty 24/7 
all across that border. About 10 of those a day are admitted to 
the hospital and receive tremendous medical care from border 
communities that are stressed by this situation as well.
    So any additional support from volunteers will help. Being 
able to fund that support, will help us manage the crisis. I 
would still like to focus on addressing it and preventing it, 
starting in Central America, but, yes, we need help to manage 
it, and that is the funding request we have made.
    Mrs. Lesko. Thank you. I just want to add that I do greatly 
appreciate the Border Patrol officers, all of our law 
enforcement officers in DHS. The ones that I have met are 
really working hard to protect our Nation and to help these 
migrants. So thank you.
    I yield back my time.
    Chairman Thompson. Thank you.
    Mr. Secretary, in your meeting with the Ranking Member and 
myself yesterday, you told us that TSOs were being deployed to 
the border.
    Mr. McAleenan. That is why I added that while they haven't 
yet been deployed, we have requested volunteers that could 
include TSOs to help deploy and support the mission on the 
border.
    Chairman Thompson. So they will be?
    Mr. McAleenan. That is a potential, Mr. Chairman, yes.
    Chairman Thompson. The Chair recognizes the gentleman from 
New York, Mr. Rose.
    Mr. Rose. Mr. Secretary, thank you to being here today. 
Thank you for your service to this country across multiple 
administrations. I do believe in your heart you want to put the 
country first.
    So I want to, first of all, talk about Fentanyl. It is 
coming from China, and it is killing kids in virtually all of 
our districts. China is the largest producer of illicit 
Fentanyl. Recently, there has been a bipartisan bill, bicameral 
as well, that--called the Fentanyl Sanctions Act proposed to 
hold China's feet to the fire. Part and parcel of this is the 
establishment of a Federal commission which will focus on 
developing a consensus and a strategic approach to address 
illicit Fentanyl.
    A very basic question. Would you be a supporter of Homeland 
Security participating on the commission and in this whole-of-
Government approach to address Fentanyl?
    Mr. McAleenan. So addressing the scourge of Fentanyl is one 
of the Department's top priorities on the counter-narcotics 
side. So I would certainly like to talk with you about that and 
see how we could be a participant in that effort.
    Mr. Rose. Do you have any other updates you would like to 
give on your perception of the Fentanyl issue right now?
    Mr. McAleenan. I have got maybe 3 or 4. I will try to do it 
quickly because I know you have limited time. First of all, the 
investments in 2019 that will allow us to transform how we do 
scanning of trucks and vehicles crossing our Southern Border 
will make a huge impact in our ability to detect synthetic 
opioids like Fentanyl and all narcotics. Also, deploying this 
equipment in mail facilities in express consignment out at the 
JFK mail facility, for instance, where most of the Fentanyl 
that is in mail packages and hiding in that huge mass of 
consumer goods that is coming across from China, we are able to 
detect that better with that equipment.
    We are also working with U.S. Postal Inspection Service and 
HSI to take targeted shipments that we find with 25 grams of 
Fentanyl and follow that into where the pill pressers are and 
the distributors. We have had a lot of successes in this last 
year, more than doubled our Fentanyl seizures at our mail 
facility. So it is a tremendous operational priority for us 
both in interdiction and investigation. The technology 
investments we received in 2019 are going to make a huge 
impact.
    Mr. Rose. Thank you. So moving on to counterterrorism. I 
represent a district in New York City, No. 1 terrorist threat, 
the country definitely, potentially the world at large. It has 
been raised already here that you and the administration, the 
administration with your support, has proposed pretty 
significant cuts to whether it is UASI, transportation 
security, so on and so forth--$587 million in cuts in total for 
Homeland Security grants to places that need them for 
counterterror spending, New York City particularly.
    You used a term that I found interesting earlier, shared 
responsibility. Your belief, correct me if I am wrong, is that 
municipalities and States need to start doing more. Is that 
correct?
    Mr. McAleenan. Right.
    Mr. Rose. So are you of the opinion that the NYPD is not 
doing enough right now, is not shouldering the burden enough 
right now? Because these cuts are significant. I believe these 
cuts--it is not a scalpel, this is a hatchet. I have to figure 
out what to say to them.
    Mr. McAleenan. Right.
    Mr. Rose. Being from a bipartisan country-first 
perspective, what do I tell them?
    Mr. McAleenan. Well, first of all, you can tell 
Commissioner O'Neill that he is among our top partners in law 
enforcement all over the country, and that NYPD is the most 
effective counterterrorism force in the State and local police 
level that I am aware of. So please don't suggest that they are 
not doing enough.
    In terms of grant investments at a municipal level, 
especially our major cities that could be targets, that does 
have to be a shared Federal, State, and local responsibility.
    Mr. Rose. But monetarily, you are saying that they need to 
do more, New York City, New York State, other major urban areas 
that are the primary threats to counterterror. You are saying 
that they are not doing enough right now.
    Mr. McAleenan. No. I am saying that to sustain funding at 
the prior grant levels--and remember, we are working within a 
top-line budget. Nobody wants to make cuts to security programs 
ever. You are trying to balance across all of your requirements 
as a Department and as an administration when you submit the 
budget. So I just want to emphasize that.
    Mr. Rose. Is it a correct reading, then, of the budget to 
say that you have deemed the border of greater priority than 
counterterror right now?
    Mr. McAleenan. So I think there are multiple priorities. 
The border is a significant priority----
    Mr. Rose. You are increasing funding for one.
    Mr. McAleenan. Correct.
    Mr. Rose. And decreasing funding for the other.
    Mr. McAleenan. Correct.
    Mr. Rose. The logical conclusion from that is that the 
border is a greater threat to this country right now than 
terrorism.
    Mr. McAleenan. So--not necessarily, but you just noted the 
Fentanyl risk, right? That is coming across the Southern 
Border. That is the primary----
    Mr. Rose. The ports of entry, yes.
    Mr. McAleenan [continuing]. That is having impact on our 
communities every single day. So it is a balance between all of 
those efforts.
    I think the idea on the grants is that the accumulated 
investments have gotten us to a place of significant security, 
especially in major cities. We need to continue to work on it, 
continue to partner, and hopefully, we can manage through the 
cuts.
    Mr. Rose. OK. Thank you for your time, Mr. Secretary, 
again. Thank you for your service.
    Chairman Thompson. The Chair recognizes the gentleman from 
Tennessee, Mr. Green.
    Mr. Green of Tennessee. Thank you, Mr. Chairman, Ranking 
Member.
    Secretary McAleenan, I have got to start off first by 
telling you thank you for your honorable service to this 
country. You have been a staunch defender of our freedoms and 
the rule of law, defending the Constitution as you swore on 
oath to do so almost 18 years ago.
    It is my understanding that you left what promised to be a 
high-paying civilian-sector job after you felt inspired by the 
attacks at 9/11 to help CBP set up the office of antiterrorism. 
Your faithful service is very appreciated. I hope we in 
Congress can do our job and provide you the funding you need 
and as requested by your people on the ground to continue your 
now broader mission.
    The Democrats got it flat wrong. While the President 
sounded the alarm on the crisis at the Southern Border, the 
left refused, in fact, shut the Government down, stating, and I 
quote the Speaker, ``a manufactured crisis''. Now, even the 
liberal New York Times is saying it is a crisis.
    Further, the deception of the left seems to know no bounds. 
The images of children in cages were actually from the Obama 
administration. Yet multiple activists, legislators today have 
decried the separation of children when, in fact, this 
President stopped it.
    I am highly concerned about my colleagues on the other side 
of the aisle using politics to block DHS from doing its job and 
then securing our Southern Border. From demanding a limit on 
detention space for illegal aliens to the new supposedly cool 
thing to do, chanting ``abolish ICE, abolish ICE,'' the 
Democrat Party has hit a new low on the rule of law.
    This country welcomes immigrants who come here legally with 
open arms, but a country without borders is not a country. The 
notion that we should not be allowed to preserve our borders' 
very existence or even remove current barriers, as others have 
proposed, is ridiculous.
    My colleagues claim to be a party that defends Federal 
workers, but where are they now defending our brave ICE agents? 
Where are they in helping those who serve us?
    Mr. Secretary, one quick question, can you elaborate on the 
need for more beds for ICE and what the lack of such funding 
will do in disrupting ICE's mission?
    Mr. McAleenan. So what we are seeing with the flows at the 
border, the one demographic that we can actually finish the 
enforcement and immigration law on and determine if someone has 
a right to stay in the United States, a valid asylum claim 
where it should repatriated is for single adults.
    We do this border surge. We are exceeding ICE capacity for 
single adult beds, and we have requested more funding for it. 
Without that funding, we have an impossible choice. We either 
lose control over our border entirely, because we won't be able 
to enforce the law, even against single adults, or we are going 
to have to release people that were picked up in the interior 
with criminal records, which is also unacceptable.
    So we need that funding from Congress to maintain our 
border security and to support the men and women of ICE. Just 
to clarify, 75 percent of ICE's intake comes from the border. 
They are focused on supporting the border security mission 
first and foremost. But to take away their ability to also pick 
up criminals in the interior and to keep threats out of our 
communities would be very unfortunate for our security as a 
country.
    Mr. Green of Tennessee. Thank you, Mr. Secretary.
    Is there anything else that, based on the testimony that 
has been given so far, that you would like to take the 
remaining minute of my time and just share with the committee, 
your thoughts?
    Mr. McAleenan. Thank you for that opportunity, Congressman. 
You know, I thought I would have on this--you raise this 
challenge of single adults, and I just want to also put it in 
the context of families. In my first two hearings testifying as 
Acting Secretary, being responsible for oversight of ICE, what 
I heard from Members is a lot of concern about ICE officers in 
communities making arrests. What struck me there is what we are 
asking to do with families is actually keep them safely 
together in custody to finish a proceeding but not release them 
to communities until they have proven a right to stay in the 
United States.
    So what the Members are asking me is saying you can't keep 
them in custody and you can't come into our communities, even 
if they have a final order of removal from a judge. Now, that 
doesn't make sense. In what area of law would we tell our men 
and women who enforce the law that you can't follow through on 
a judge's final order of removal? That is our responsibility. 
So we either have to fix it on the front end or we have to 
recognize that ICE is going to need to be in communities to 
maintain the integrity of the system.
    Mr. Green of Tennessee. Thank you, Mr. Secretary.
    Thank you, Chairman.
    Chairman Thompson. The Chair recognizes the gentleman from 
Rhode Island, Mr. Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. McAleenan, thank you very much for your testimony and 
your service.
    I would like to start out on a cyber-related question. Last 
September, then Secretary Nielsen testified before the Senate 
that, ``cyber attacks now exceed the risk of physical 
attacks.'' Then in March, she testified before our committee 
that cybersecurity is one of, if not the highest threats that 
we face in the homeland.
    Do you agree with that assessment, yes or no?
    Mr. McAleenan. Yes.
    Mr. Langevin. So are you aware of how many cybersecurity-
related vacancies there are within Cybersecurity and 
Infrastructure Security Agency?
    Mr. McAleenan. Not as I sit here today, but I know that 
hiring effort is a top priority for CISA.
    Mr. Langevin. OK. For the record, Mr. Chairman, there are 
361 cybersecurity vacancies at CISA as of April 30. That 
concerns me, obviously.
    So, Mr. McAleenan, I have an email here from the deputy 
director of CISA, Matthew Travis, from Friday, May 17, with the 
subject line, Call for DHS Volunteer Force Participation, 
requesting the CISA employees to, ``give serious thought to 
volunteering at the Southern Border.''
    I ask unanimous consent, Mr. Chairman, that the email be 
included in the record.
    Chairman Thompson. Without objection.
    [The information follows:]
     Email From Matthew Travis, Deputy Director, Cybersecurity and 
                     Infrastructure Security Agency
                                      May 17, 2019.
Call for DHS Volunteer Force Participation

    Fellow CISAzens: As you well know, the Nation has been facing a 
protracted security and humanitarian crisis at our Southern Border. The 
Department's leadership continues to take necessary steps to secure the 
border and provide humanitarian aid to those who are attempting to 
enter the country illegally.
    Because of the on-going surge of migrants, our colleagues in 
Customs and Border Protection (CBP) and Immigration and Customs 
Enforcement (ICE) are in need of support and assistance from across the 
Department. I am asking you to consider a short-term deployment to the 
Southern Border to help out the DHS team down there. If it is within 
your capacity to deploy, please give serious thought to volunteering. 
In the past, we have seen similar actions in surging DHS employees to 
support FEMA's response and recovery efforts following major 
hurricanes, and this endeavor to support our co-workers across the 
Department is no different.
    Deployments may range from 30 to 45 days, depending on the job type 
and location, and there are some steps required before you can deploy. 
I encourage you to check out the DHS Volunteer Force for additional 
details ranging from the type of assistance needed, registration 
information, and FAQs.
    It is never easy to ask colleagues to take on extra challenges, but 
as DHS employees, serving the needs of the homeland is the cornerstone 
of what we do. If you are interested, please discuss this decision with 
your family and your supervisor. If you remain interested, please 
contact Andre Davis at [.]
    Thanks for your consideration of this important mission. Have a 
nice weekend and stay hydrated.
            Sincerely,
                                            Matthew Travis,
 Deputy Director, Cybersecurity and Infrastructure Security Agency.

    Mr. Langevin. So are you aware of this email, and did you 
discuss this call for volunteers with anyone at CISA?
    Mr. McAleenan. So I am not aware of that email in 
particular, but I am aware of the call for volunteers to help 
address the border crisis, just as we would do in a natural 
disaster. Our expectation, though, is that CISA would make 
risk-based decisions on the types of professionals that they 
would free up for this kind of mission and balance against 
their day jobs and their current focus.
    Mr. Langevin. So are you aware of anyone on your staff or 
within your Office of Secretary who discussed this with CISA 
first?
    Mr. McAleenan. I would have to ask. I know the acting 
deputy secretary has personally helped me with this volunteer 
call to make sure that we are supporting the men and women at 
the border as much as we can.
    Mr. Langevin. So my question is if cybersecurity is such a 
high threat to the homeland, and if CISA already faces such a 
staunch shortage of workers, do you think it is appropriate 
then for them to leave the jobs protecting our Federal networks 
and critical infrastructure, including our elections, to go to 
the border?
    Mr. McAleenan. I would not expect, nor want, the CISA 
leadership to deploy critical cybersecurity professionals in 
this role. If they have mission support professionals, 
attorneys or others who could be spared to support this effort, 
we would welcome that. But that is for their management and 
leadership to handle.
    Mr. Langevin. I think it is important to have that on the 
record, because again, given the importance of the mission, the 
size of the threat, the challenges that we face, the large 
number of vacancies within CISA, it is not, it seems to me, a 
Department that can spare critical talent to go anywhere other 
than doing the job they are doing protecting our Federal 
networks.
    So, Mr. McAleenan, if I could, last week, the President 
issued an Executive Order entitled ``Securing the Information 
and Communications Technology and Services Supply Chain,'' 
which found that potential supply chain risks constitute an 
unusual extraordinary threat to the National security, foreign 
policy, and economy of the United States.
    The New York Times first reported on a leaked draft of this 
Executive Order in June 2018. Can you tell us, why did it take 
nearly a year for the President to sign the Executive Order?
    Mr. McAleenan. So I am not familiar with the process of 
developing that, but I know that this has been something that 
has been focused on by Department of Homeland Security experts, 
a risk to our supply chain of equipment that could be 
vulnerable to counterintelligence exploitation.
    Mr. Langevin. Do you believe that the National security of 
the United States should be subsumed to concerns over trade 
talks?
    Mr. McAleenan. I think there is always a balance, but 
National security is essential, and I think very clearly the 
focus of this administration.
    Mr. Langevin. So portions of the Executive Order have 
already been put on hold due to unintended consequences of the 
bans put in place after issuance. Do you anticipate further 
challenges implementing the Executive Order which requires 
coordinating efforts across several agencies in the absence of 
a White House cybersecurity coordinator?
    Mr. McAleenan. So I will look at that to see if there are 
any coordination issues. I have not been apprised of any by my 
team. I think it is been ruled out effectively, and we will 
continue to monitor it.
    Mr. Langevin. I still am very concerned about the fact that 
the subsequent coordinator's position, the cybersecurity 
coordinator was fired and the position was eliminated at a time 
when this is one of our biggest challenges and we need a 
coordinator to be fulfilling that role to bring our strategy 
together. But my time has expired. Thank you for your 
testimony.
    Mr. McAleenan. If I could very briefly just note, I have 
already met with the director of national intelligence, the FBI 
director, the attorney general on cyber issues that are going 
to be a critical priority for DHS to be aligned and coordinated 
across the interagency.
    Mr. Langevin. Thank you.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Taylor, 
for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman, Ranking Member.
    Mr. Secretary, I just wanted to focus in, if we could for a 
second, on the humanitarian crisis on the border. I know that 
there has been a lot of discussion about that. You have 
mentioned, I think briefly in your testimony, you talk about 
the role of smugglers and coyotes in sort-of driving that. 
Would you like to--would you mind expanding on what is driving 
it in terms of not the migrants themselves but the actors 
outside of them that are operating, obviously in Mexico, that 
are creating this problem?
    Because clearly, something is happening, something is 
accelerating the kind of increase, the influx, and that is in 
turn creating the kind of crisis, I think, that you see a lot 
of concern for.
    Mr. McAleenan. What is happening primarily and what we saw 
really starting early last year was increased awareness that 
there is a vulnerability in our legal system due to the 
reinterpretation of the Flores settlement, that if an adult 
arrives with a child, they have a likelihood of staying in the 
United States. Smugglers have capitalized on that, and they are 
directly advertising that fact. You don't have to take it from 
me, even though we have done thousands of interviews of 
migrants coming across the border with their parents. Why did 
you come now? Why did you bring your child? Because the 
smugglers told me now is the time to come. If I have a child 
with me, they have to release me. That is what we hear 
repeatedly.
    But you can read that in The Washington Post, The Wall 
Street Journal, The New York Times, all who have gone to the 
western highlands of Guatemala, The New Yorker who have studied 
this issue, who have seen how smugglers are advertising almost 
at a retail level in communities.
    We have one department in Guatemala that has over 3 percent 
of their population has come to the United States in 7 months. 
The effort there to recruit and to fund the smuggling network 
is just absolutely dramatic. So that is the kind of challenge 
we are facing. Social media has made that communication easier 
and faster and even more challenging for law enforcement to 
deal with.
    Mr. Taylor. So, I mean, it seems to me that you are saying 
you need two things, you need some statutory fixes and you need 
some resources. So you have been asking for the statutory fixes 
for about 3 years now?
    Mr. McAleenan. Well, ever since we lost the authority to 
detain families together, our law enforcement professionals at 
DHS have recommended that we get a statutory change, yes.
    Mr. Taylor. OK. Then one thing I didn't do, is there 
anything you want to respond to that you didn't have a chance 
to? I mean, is there a thought on your mind? I know I started 
to ask you questions, but----
    Mr. McAleenan. Sure. You know, I think this committee and 
the American people should be aware of the extent of the effort 
that law enforcement professionals who are not trained for this 
set of missions are undertaking to try to protect vulnerable 
people in this cycle. It is an immense effort every single day.
    You know, I was just down in the border in El Paso a few 
weeks ago, and we had a supervisor on detail from Washington 
State, big hulking guy, looked like an NFL linebacker. There he 
was on his knee, making baby formula in a bottle to hand to a 
migrant mother with a child. That is not what he signed up for. 
He volunteered to come to the Southwest Border, and he is there 
trying to keep people safe, to care for them in their custody. 
I think the extent of that effort, how hard our agents are 
working, how pressed they are, and how much help they need is 
incredible. They have been dealing with this months on end 
without relief. I think that has to be recognized.
    Mr. Taylor. Sure. One statistic that has stuck with me in 
my short time here in Congress is, you know, that we admit 1 
million people with permanent visas every year, 1 million new 
visas ever year, and we admit another 10 million people on 
temporary visas every year. I think we are the most generous 
Nation on Earth in terms of immigration. No other country lets 
that many people in every year. So I think it--it is a point of 
pride for me that our country is so welcoming to immigrants.
    The extent of the people that--so you arrested--you 
arrested 100,000 last month on the border. How many of those 
have been released into the United States?
    Mr. McAleenan. So due to the restrictions on retaining 
families together, about 60 percent of those crossings are now 
family units. So almost all of those people have been released 
in the United States. If they are not from Mexico, if they 
didn't go through a credible fear-finding and get a negative 
determination, they are likely to still be in the United States 
awaiting a court proceeding.
    Mr. Taylor. So when you are doing your numbers, they are 
going into the temporary visa--so they are being apprehended 
and then being released on a temporary visa in the United 
States. Is that right?
    Mr. McAleenan. It is not a visa. They are essentially 
paroled, released on their own recognizance pending a court 
hearing.
    Mr. Taylor. OK. So they are not in the 10 million bucket; 
they are another bucket altogether of people----
    Mr. McAleenan. Right.
    Mr. Taylor [continuing]. That are coming into this country 
illegally.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thompson. Thank you.
    The Chair recognizes the gentlelady from New York, Miss 
Rice, for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman. Thank you, Mr. Acting 
Secretary, for being here today.
    We saw an unprecedented attack on our democracy from a 
foreign adversary in 2016. DHS is responsible for securing our 
critical infrastructure, including our elections. Do you agree 
with the intelligence community's 2017 assessment that Russia 
interfered in our Presidential election to help then-candidate 
Donald Trump?
    Mr. McAleenan. I accept the conclusions of our experts in 
the intelligence community.
    Miss Rice. Thank you.
    Has President Trump ever discussed the possibility of 
blocking entry into the U.S. Southern Border with you?
    Mr. McAleenan. So, first of all, I am not going to comment 
on conversations I have had or not had with the President of 
the United States. I think he is pretty clear on record about 
his priority for securing the Southern Border and the 
initiatives he has undertaken to do that, very publicly stating 
them, Oval Office addresses and so forth.
    Miss Rice. Mr. McAleenan, the President said it to the 
American people that he is thinking about shutting down the 
Southern Border. Did he ever directly speak with you about 
that? He spoke directly to the American people. I am sure you 
can answer that question.
    Mr. McAleenan. He did speak to the American people about 
it, and he also updated the American people that he was not 
looking at that as an immediate option, that he was trying to--
--
    Miss Rice. Did he speak with you about----
    Mr. McAleenan [continuing]. Collaborate with Mexico to 
address a shared challenge from transnational criminal 
organizations----
    Miss Rice. Did he speak to you about it?
    Mr. McAleenan. I am not going to talk about conversations 
with the President.
    Miss Rice. Did he ever mention the possibility of a pardon 
if you violated the law and were arrested for closing the 
Southern Border? Yes or no.
    Mr. McAleenan. As I have noted, I am not going to talk 
about my conversations with the President. But I have never 
been asked to do anything illegal. I am on record in the media 
and elsewhere with that answer.
    Miss Rice. Well, have any people who work for you addressed 
concerns about being asked to do things that they felt were not 
legal and the personal ramifications they might suffer as a 
result of that? Have any--has that ever bubbled up to your 
level?
    Mr. McAleenan. We would not ask our law enforcement 
professionals to violate the law. That is not acceptable for my 
level or for any of our leaders.
    Miss Rice. So Mr. Langevin asked you about CISA and your 
Department's request for volunteers from different agencies 
throughout the Federal Government. CISA actually was not the 
only agency at DHS--that DHS or at DHS that you directed to ask 
for volunteers.
    Do you know the number of employees from TSA that have 
volunteered to go to the Southern Border?
    Mr. McAleenan. I don't have that in front of me. I know 
that TSA has been one of our most responsive agencies in 
helping with crises or natural disasters for years.
    Miss Rice. There are some TSA employees who have 
volunteered?
    Mr. McAleenan. Yes, certainly.
    Miss Rice. OK. How many of them--or have they been trained 
to work with migrant children and families?
    Mr. McAleenan. So there will be training for anyone who is 
engaging directly with migrants on arrival.
    Miss Rice. Has there been for volunteers who are already 
there?
    Mr. McAleenan. So any volunteer who has been deployed and 
is already on the border supporting CBP will have received an 
orientation and training upon arrival.
    Miss Rice. So the training is going on?
    Mr. McAleenan. Yes.
    Miss Rice. How many employees from the U.S. Secret Service 
have volunteered to go to the Southern Border?
    Mr. McAleenan. I don't have that information as I sit here, 
but I can get it back to you.
    Miss Rice. Have any of them been trained to work with 
migrant children and families?
    Mr. McAleenan. Again, that process would happen on arrival 
with the specific assignment in a sector, depending on the 
skills and expertise of the person going. Could be an attorney. 
We are not going to necessarily need to train them for migrant 
interaction. It could be a commercial driver's license holder 
that simply will be driving----
    Miss Rice. So former Secretary Nielsen declared that cyber 
attacks now exceed the risk of physical attacks, and the 
Mueller report made clear the length the Russian Government 
will go to meddle in our elections.
    So CISA, obviously being the agency responsible for the 
cybersecurity of 99 Federal agencies, I am sure you would agree 
with me that this is not an ideal use of their time, even if it 
is on a voluntary basis.
    Mr. McAleenan. So, again, for critical personnel that are 
directly involved in protecting the election infrastructure, I 
do not expect them to be deployed as volunteers in----
    Miss Rice. But you don't control who volunteers. If the 
general call is put out for volunteers, anyone can volunteer, 
right?
    Mr. McAleenan. Respectfully, at the Cabinet level, we don't 
do individual selections of whether volunteers can go. That is 
my expectation that our----
    Miss Rice. But you should be aware of what----
    Mr. McAleenan [continuing]. Managers are going to handle 
that----
    Miss Rice. You should be aware of what----
    Mr. McAleenan [continuing]. Appropriate assessment of the 
risk----
    Miss Rice. You should be aware of what your agency is 
asking people to do. Because they have critical functions that 
they have to do in their own job description, and you have been 
given a lot of money from Congress to increase hiring and get 
people on board so you don't--we don't have to deplete critical 
agencies at a critical time.
    Mr. McAleenan. We will not deplete----
    Miss Rice. Do you agree with President Trump's decision----
    Mr. McAleenan [continuing]. Critical mission sets.
    Miss Rice. Do you agree with President Trump's decision to 
cutoff aid to Central America at this critical juncture?
    Mr. McAleenan. So I am on record in multiple venues talking 
about the fact that to address this crisis effectively we are 
going to need to increase security, governance, and address the 
push factors in Central America. So what my responsibility is, 
and I think what the President is looking for, are accountable 
partners in Central America and targeted aid programs that can 
make a difference, that have a return on investment.
    So working with Department of State, when we see those 
opportunities, I will be presenting those through my chain of 
command.
    Miss Rice. So you mentioned that over the--you are 
traveling over the weekend?
    Mr. McAleenan. I am going on Monday, yes.
    Miss Rice. OK. I think the purpose of your trip is to 
discuss border security efforts.
    Mr. McAleenan. I am meeting with ministers from Guatemala, 
Honduras, and El Salvador in Guatemala City to talk about 
collaborations on addressing human trafficking and smuggling, 
yes.
    Miss Rice. Right. How has that become more challenging with 
the President's directive to have--leave $500 million in aid 
cut off?
    Mr. McAleenan. Well, it is frozen. It is not cut off. It is 
frozen. There are existing programs already on-going. There are 
capabilities that these governments have, and there are 
partnerships on the ground that are on-going.
    Again, the Attorney General was just there last week 
focusing on the anti-gang partnership that we have with these 
governments. So I will be talking about ways that we can 
continue that momentum and the support we need, both from our 
capacity building, our professionals doing training, and any 
programs that are critical in that effort.
    Miss Rice. It is not just anti-gang. I mean, obviously, if 
there are very difficult situations in these countries, that 
is----
    Mr. McAleenan. Sure.
    Miss Rice [continuing]. The No. 1 reason people why people 
are coming here. So----
    Mr. McAleenan. This is an economic migration. It is an 
opportunity gap in large part.
    Miss Rice. OK. So I would just encourage you continue to be 
vocal about how important it is that we continue our foreign 
aid to these countries so that we can begin to, you know, 
address this crisis that we all agree is happening at the 
border. I thank you for your service.
    I yield back the balance of my time. Thank you, Mr. 
Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Joyce.
    Mr. Joyce. Thank you for yielding, Mr. Chairman.
    I thank you, Secretary McAleenan, for appearing here today 
in front of us.
    Currently, there is a massive crisis at our Southern 
Border. Just last month's data of attempted illegal crossings 
represented the staggering 591 percent increase from just 2 
years ago. Also driving this crisis is the makeup of the 
individuals who are crossing the border. Rather than adult 
males, who we saw in years past, family units and unaccompanied 
children are spiking, and our laws have not yet caught up.
    There is a surge of people who seek--and I emphasize to 
you, sir, the word ``seek''--to be apprehended at the border, 
brought into custody, claim asylum, and be allowed to gain 
access to American jobs, health care, and education. This new 
group of families and unaccompanied minors arriving from 
Central America present significant new challenges and must be 
addressed by this committee and the House.
    In the past, Democrats and Republicans would work together 
to address these issues which are critical to the security of 
our country. Sadly, this has not been the case at all since 
January when I was sworn in. The complete breakdown of 
bipartisan work in the face of the overwhelming scope and 
severity of this crisis has almost crippled DHS in carrying out 
your work.
    I am further concerned to hear you testify today that you 
expect the agency to exhaust funding before the end of the 
fiscal year if Congress does not act on your latest 
supplemental funding request.
    Now, let me discuss my first--my first-hand experience on 
this issue and how they relate to the question I am about to 
ask you regarding an immediate measure to address this crisis 
while Congress works to get its act together.
    A few weeks ago at the Southern Border, I witnessed 
personally the lack of security in areas along the Colorado 
River that allows the cartels to smuggle drugs into our 
country, to smuggle drugs into south central and southwestern 
Pennsylvania where I represent.
    During that visit, I also spoke with some CBP agents on the 
ground, and I was shocked by what was discussed. Currently, CBP 
is consistently being tasked with providing additional 
services, such as medical support, transportation services, 
leaving them unable to carry out their core missions of 
protecting and patrolling our Southern Border. The shortage of 
personnel is glaring. One of the suggestions that the members 
of law enforcements made to me at this visit was that 
additional National Guard troops could be deployed to the 
border to help alleviate staffing issues.
    Do you believe that the presence of additional National 
Guard troops would be beneficial in curbing the crisis on the 
Southern Border? Is it time to address the immediate crisis and 
send additional National Guard troops to our Southern Border?
    Mr. McAleenan. Thank you, Congressman, for, first of all, 
your going to the border and meeting with our men and women, 
but also for just accurately laying out the scope of the 
challenge we face.
    You know, 6 times last year, in terms of the crossings, the 
change in demographics, the fact that 40 percent of our Border 
Patrol agents in top sectors of traffic are now dealing with 
care, custody, transportation, hospital watch for migrants. 
They are not on the border. They are not securing it against 
drugs coming across or against people that are trying to evade 
capture. That is a huge risk. It is a huge problem and a 
challenge that we are facing.
    So how can we address it? Well, first of all, I went to the 
border a week-and-a-half ago with the Acting Secretary of 
Defense to look at this problem together, to talk about 
expanding our partnership in this area. I can tell you that our 
National Guard partners have been absolutely essential in 
helping us maintain our border security mission over the last 
year and a half.
    Under Operation Guardian Support, we have got over 2,000 
National Guard troops supporting us every day on that border. 
Opportunities to expand that footprint, working, for instance, 
with Governor Abbott in Texas, who has been a tremendous 
supporter of everything we are doing to help secure that 
border, is absolutely an option that we are considering, and we 
have stark needs in that regard.
    So I thank you for raising it and highlighting the key role 
our National Guard partners play in supporting our border 
security efforts.
    Mr. Joyce. Thank you, Secretary McAleenan. Thank you for 
what you do for our country.
    I yield my remaining time.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Green.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I thank the witness for appearing. I thank the Ranking 
Member as well for being a part of the hearing.
    Mr. Secretary, you have a plan to deal with the area 
immediately between the United States and Mexico that we call 
the border, and you have said that there is a humanitarian 
crisis that we have to address.
    My question to you is this: If we do not properly address 
the humanitarian crisis--assume that we do all of the things at 
the border that you would like to see done in terms of keeping 
people out--what will happen to the people who are denied 
entry?
    Mr. McAleenan. So----
    Mr. Green of Texas. What will happen to the people that we 
deny entry into the United States?
    Mr. McAleenan. I think this is an important question, 
Congressman. To make sure we have clarity on what we are 
talking about, the border security versus the humanitarian 
aspects, the border security----
    Mr. Green of Texas. The border security, you have been very 
clear about how you would like to see that occur. I want to 
know about the people now who are not able to get into the 
United States because we have secured the border properly. What 
will happen to them?
    Mr. McAleenan. Well, on the humanitarian side, even though 
we have an effective barrier, we do see people crossing and 
waiting----
    Mr. Green of Texas. OK. Let's assume for just a moment 
now--you are a lawyer. You have a J.D.
    Mr. McAleenan. I do.
    Mr. Green of Texas. So let's you and I as lawyers 
communicate appropriately. Let's now talk about the people--
let's not talk about those who get in. Let's talk about those 
who do not.
    Mr. McAleenan. Right.
    Mr. Green of Texas. What will happen to them?
    Mr. McAleenan. So they have an opportunity to present 
lawfully at ports of entry. We are doing that in record numbers 
right now. We are headed toward almost 80,000 asylum seekers 
presenting at ports of entry this year. So that is first and 
foremost. We want to create opportunities to seek protections--
--
    Mr. Green of Texas. OK. Excuse me. I don't mean to be rude, 
crude, and unrefined, but I am interested in the people who do 
not get in.
    Here is my contention. You say we have a humanitarian 
crisis. Let us assume that the crisis is not resolved by virtue 
of persons having ingress into the country. Let's assume that 
it is not. If it is not resolved, what is going to happen in 
Central America? What is going to happen in Mexico? This is our 
hemisphere. These are our neighbors. Let's focus for just 1 
minute, if you would, on what is going to happen to them.
    What will happen when they return home?
    Mr. McAleenan. So, first of all, I agree these are our 
neighbors. This is our hemisphere, and we need to support and 
work with partners in Mexico and Central America to address 
the----
    Mr. Green of Texas. What do we do? What is going to happen 
to them, Mr. Secretary?
    Mr. McAleenan. Right.
    Mr. Green of Texas. What is going to happen to them? This 
is our hemisphere.
    Mr. McAleenan. It is.
    Mr. Green of Texas. We give Jordan money to deal with 
Syrian refugees. We, through USAID, spend hundreds of millions 
of dollars in aid to help persons who are refugees, and we want 
to make sure those refugees are taken care of.
    What will happen in Central America? What is going to 
happen? This is our neighbor, our neighborhood, if you will.
    Mr. McAleenan. Right.
    Mr. Green of Texas. What will happen?
    Mr. McAleenan. There has been a lot of progress in the last 
5 years.
    Mr. Green of Texas. Thank you for the progress. But let's 
talk about the lack of progress, and we are sending people back 
to harm's way. These are people, but for the grace of God, 
could be you, could be me. We were just lucky to be born in the 
United States of America, just lucky. So what is going to 
happen to the people? What is going to happen when they go back 
to harm's way?
    You talk about the children coming here and the fact that 
they are impregnated and how they are abused along the way. Why 
are we going to send them back? It is not as though they are 
going to somehow now become immune to all of the atrocities 
that they have to suffer and endure as they migrate in this 
direction. So what will happen to them?
    Mr. McAleenan. What we want to do is give them a safe 
opportunity to apply for protections in the United States or--
--
    Mr. Green of Texas. Let's assume they don't make it to the 
United States. This is our hemisphere.
    Mr. McAleenan. Right. We would like to do that in country. 
Especially----
    Mr. Green of Texas. Yes, this is our hemisphere.
    Mr. McAleenan. Right.
    Mr. Green of Texas. We have to do more to help people in 
our hemisphere. I am not saying that we cease and desist with 
our actions around the world. I am not saying that. But I am 
saying that we have to have enough heart to understand--and I 
believe you have said that this is a humanitarian crisis--that 
if it is a humanitarian crisis, a wall doesn't solve the 
humanitarian aspect of this crisis. It doesn't. More drones 
won't solve it. More Border Patrol agents won't solve it.
    People are still suffering in these countries that are in 
our neighborhood, our neighbors, Mr. Secretary. The question 
becomes, what do we do? This is your watch.
    Mr. McAleenan. Right.
    Mr. Green of Texas. Now, you may not have the answer today. 
You are new on the job. But we will visit again, and we will 
revisit the question.
    I yield back the balance of my time.
    Chairman Thompson. Thank you.
    The Chair yields 5 minutes to the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Secretary, first, I would like to thank you, thank the 
men and women that you serve with, for your professionalism, 
for your dedication, and your hard work under extremely 
difficult circumstances.
    I would like to apologize to you today for the inaction of 
the U.S. Congress. The administration, your predecessor, for 
the last year, has been warning us of the looming crisis that 
exists along our Southwest Border.
    You testified earlier today that we had a security crisis, 
that we had a humanitarian crisis. It has previously been 
testified that we have a drug trafficking crisis, a human 
trafficking crisis, and an immigration crisis. I believe you 
used the words such as ``dire'' and ``unprecedented'' in 
explaining what we are seeing along the border.
    In March, I believe there was 103 illegal immigrants which 
were apprehended along our border, and then in April, that 
number rose to 109.
    So instead of Congress helping you deal with the crisis, 
what we have seen today in this very hearing is members--a 
Member of Congress make allegations that you and the men and 
women that you serve with have intentionally allowed children 
to die in your custody. I want to apologize to you and the men 
and women that you serve with for these untrue remarks.
    My question to you, Mr. Secretary, is, do you--as we sit 
today, do you currently have the personnel that you need to 
deal with this crisis?
    Mr. McAleenan. No, we don't.
    Mr. Guest. As we sit today, do you currently have the 
facilities that are needed to deal with the crisis along our 
Southwest Border?
    Mr. McAleenan. No.
    Mr. Guest. Mr. Secretary, do we currently have the number 
of immigration judges and court officials to manage the crisis 
along our border?
    Mr. McAleenan. No. We have asked for support in all of 
those areas, Congressman.
    Mr. Guest. Mr. Secretary, let me ask you, have we as a 
Congress, have we approved a supplemental funding request to 
address the crisis along our border?
    Mr. McAleenan. Not yet. We are eager to have that come 
forward.
    Mr. Guest. Let me ask you another question, Mr. Secretary. 
Are our current immigration and asylum laws, are they making 
the crisis along our border better or worse?
    Mr. McAleenan. Yes. The fundamental driver is the pull 
factor. It is our immigration laws and the vulnerabilities for 
families, children, and for exploitation of our asylum process.
    Mr. Guest. So I would assume that your answer is that our 
current asylum laws are making the crisis worse. Is that 
correct?
    Mr. McAleenan. Correct.
    Mr. Guest. So we as Congress, we have not provided you the 
resources you need for personnel, we have not provided you the 
facilities that we need, we have not provided you the court 
officials that you need, and our current--we have not approved 
a supplemental funding request that you have asked for, and the 
laws that Congress has in place today are currently making the 
situation along our Southwest Border worse instead of better. 
Is that correct?
    Mr. McAleenan. That is all correct.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I thank you, Mr. Secretary, for appearing before us today.
    We know that the Department of Homeland Security has a very 
critical mission, protecting our Nation. It seems, though, 
however, that we have not quite figured out the right blend and 
mix with respect to our mission and really focusing and honing 
in on it.
    The Department of Homeland Security is one of the youngest 
Federal agencies in our Nation, and that there is this level of 
contention about the mission of this agency is really, really 
distressing, particularly for a New Yorker who has lived 
through two terrorist attacks.
    We don't just need to defend ourselves against the all-too-
real threats of cyber attacks, terrorism, and election 
interference; we also need to defend our values. I think that 
part of the struggle here today is a struggle of values.
    Before her departure, our committee held a hearing with 
Secretary Nielsen. She denied the very fact that children were 
being held in cages, when everyone could see it with their own 
eyes. These inhumane policies, which are simply the mandate 
given to an agency by an administration, and the family 
separation is just one of many that I believe have no place in 
our society. It is as though we are suffering with amnesia 
about the fact that so many of--so much of who we are is rooted 
in immigration, no matter who you are in this country, outside 
of Native Americans and, of course, those who were brought 
through chattel slavery.
    So I just find it really interesting some of the 
conversation that we have been having today. When there weren't 
immigration laws, a whole heap of people came to the United 
States of America seeking freedom and liberty. They may have 
come from Europe, they may have come from other parts of the 
world, but they came and they were embraced--well, you know, 
some of them struggled, but they became Americans.
    Under this administration, unfortunately the mandate for 
DHS has focused on the attack on immigrants, has been focused 
on the attack on refugees. While diverting resources and 
personnel away from what I believe are real threats, the wall 
we should be building is a firewall to defend our networks 
against cyber attacks. While we spend a fortune on so-called 
border surge, we are failing to take basic precautions against 
another round of Russian interference in our elections, schools 
and places of worship are under siege, and foreign and domestic 
terrorist groups are on the rise. But instead, Donald Trump is 
focused on what many believe--and I certainly do--is a fake 
threat of hardworking individuals seeking refugee status here 
in the United States of America. That is not Homeland Security. 
That is demagoguery.
    So let me just ask a couple of questions. As Acting 
Secretary, you are now charged with the critical task of 
defending our elections from foreign interference. You answer 
to Donald Trump, who denies that Russians interfered in the 
2016 election. In an interview on Air Force One in 2017, the 
President said that Putin said he didn't meddle, and that 
Donald Trump said, ``I really believe when he tells me that, he 
means it.''
    Let me ask, does the Donald Trump statement conflict with 
the findings of DHS and all of our intelligence agencies that 
Russia did, in fact, interfere in the 2016 election?
    Mr. McAleenan. I think the intelligence community's 
findings speak for themselves.
    But can I respond to some of your points you raised in your 
opening?
    Ms. Clarke. I just wanted to get through my line of 
questioning. I don't have a whole lot of time, but I will yield 
to you once I get through those questions.
    Because my question is, how are we protecting ourselves? 
How does your budget reflect the need to protect ourselves, 
particularly from cyber intrusions by nation-states?
    Mr. McAleenan. So first of all, our 2020 budget request 
has--for the first time, has a specific line item for 
protecting elections. That said, we are not waiting for the 
2020 budget. We have already launched the Protect 2020 
initiative, trying to reach all 8,800 jurisdictions that 
oversee elections in this country. Maintaining our election 
integrity from a cyber perspective is a fundamental obligation 
of this Department. I have had meetings multiple times a week 
since I have gotten this Chair focused on that issue, and I 
have a great team that is----
    Ms. Clarke. Well, that is interesting, because there is a--
--
    Mr. McAleenan [continuing]. To accomplish it.
    Ms. Clarke. Excuse me, Mr. Secretary. There is a $40 
million cut in the Cybersecurity and Infrastructure Security 
Agency's budget, and there is a $238 million cut to the Science 
and Technology Directorate.
    So are you telling me you are going to do more with less? 
Is that essentially how that works?
    Mr. McAleenan. Not precisely. The cut that you referenced 
is because we have completed development of one of the 
protective systems of the dot-gov network that we don't need 
additional money to start the development. We are now just in 
an operations and maintenance phase with that. We do have new 
funding for personnel and for protecting the election 
infrastructure.
    Ms. Clarke. OK. You said you had some comments?
    Mr. McAleenan. Yes. I just don't believe we are failing in 
our counterterrorism mission or failing in our focus on 
cybersecurity. We are a multi-mission department. We have to do 
multiple things at the same time--240,000 strong. With leaders 
across the Department, there are 8 operating components all 
focused on different aspects of these mission sets.
    I can tell you there is no attack on immigrants, there is 
no attack on refugees. There is a desire to secure our border, 
and we are processing more asylum seekers than ever before as a 
Nation, leading the world in the processing of asylum seekers. 
So I just didn't agree with your characterization.
    Ms. Clarke. Mr. Secretary, I thank you for your comments. I 
am going to have to yield back. But I am glad you can sit there 
and say that with a straight face, because there are a whole 
bunch of folk in America that just don't see it that way.
    I yield back, Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentleman from 
Texas for 5 minutes, Mr. McCaul.
    Mr. McCaul. Thank you. Thank you, Mr. Chairman.
    Acting Secretary, thank you for your service, with CBP as 
well.
    I can tell you, when I was Chairman, like the height of the 
terror threat and the caliphate in 2015-2016, the Department, 
FBI, intelligence community did a phenomenal job stopping that 
terror threat, many of which no one will ever know about.
    But I actually have a question about the budget, since this 
is a budget hearing. It has to deal with sort-of creative ways 
to pay for infrastructure and security at the United States 
border. Unfortunately, the bill I had with Chairman Goodlatte 
failed on the floor. It had $25 billion in advanced 
appropriations. Now we are looking at what I consider to be a 
crisis.
    Can you tell me how much the budget is for both 
infrastructure and technology at the border? You may not know 
that off-hand. If you don't, that is fine.
    Mr. McAleenan. I referenced a number of those investments 
in my opening and in my written statement.
    Good to see you again. I appreciate your expertise and 
long-time support of DHS and our missions for security.
    We did request $5 billion for a wall, about $500 million 
for additional investments in border security sensors and 
technology, surveillance capability, for instance, as well as 
our Air and Marine platforms to have better surveillance 
capability as well.
    Mr. McCaul. One of the ideas that we had--and I think it 
was also discussed by, I think, Mr. Kushner, was we were going 
to put in that bill something called a border security trust 
fund.
    Mr. McAleenan. Right.
    Mr. McCaul. But instead, we opted for the advanced 
appropriation. But the idea is--it is pretty simple and to me 
kind-of makes a lot of sense. A border security trust fund, all 
the fees that CBP collects at the border, most of those, as I 
understand it, go to the general treasury and not back to the 
border. Is that correct?
    Mr. McAleenan. That is correct.
    Mr. McCaul. Do you know how much is collected, say, on an 
annual basis with these fees?
    Mr. McAleenan. Well, if you combine our trade mission with 
our merchandise processing mission with our travel mission, we 
are talking well over $50 billion, well over the total funding 
requested for the entire Department of Homeland Security.
    Mr. McCaul. It seems to me you are collecting this at the 
border, it should go, not just for the border security, but we 
have a lot of infrastructure issues. You know, when I go to 
Laredo, you see the long line of 18-wheelers and processing, 
and we can have better technology down there and have better 
infrastructure in place.
    Currently, how much of that goes back to the border and how 
much of it goes to the general treasury?
    Mr. McAleenan. A very small percentage goes back to the 
border.
    If I could just offer that I think the notion of a 
sustained fee-based investment in infrastructure, both to catch 
up with the deficit that we have for ports of entry, for 
instance, for border security technology, would be a tremendous 
idea. It was offered last week by the President in rolling out 
the immigration reform recommendations to Members of Congress.
    But that kind of thing should be nonpartisan, to continue 
our investments without waiting on the vagaries of a budget 
cycle, to make sure that we can enhance lawful trade and 
travel, as well as secure against narcotics, provide increased 
protections all along the border is a very good concept and 
idea that I would support.
    Mr. McCaul. I was going to ask if you did support that 
idea.
    I think this, Mr. Chairman, is a bipartisan issue. It is 
not political. It is just a--using a fee that is captured at 
the border to go to protect the border and build 
infrastructure.
    It is self-sustaining, as you said.
    I get really--you know, we all work--you know, we all don't 
look forward to the appropriations cycle and the shutdowns of 
the Government and the cliffhangers and all of the drama 
holding your Department hostage with this kind of funding. This 
will happen again, unfortunately, I think in September, if we 
don't do something creative like this, to solve that problem in 
a responsible way, without scoring political points or having 
the shutdown of the Government--which I don't think anyone here 
supports that idea. I don't think it is ever productive to shut 
down the Government. Then it just turns into, you know, finger-
pointing for political purposes.
    So I would suggest, Mr. Chairman, I would very much like to 
work with you and the Ranking Member on this idea, if you would 
be amenable to that.
    I, sir, want to thank you for, again, your service and your 
support for this idea as well.
    With that, I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Missouri for 5 
minutes, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Secretary, congratulations, and I wish you the best. I 
don't think anybody on this committee and probably no rational 
American would want less. So I wish you the very best.
    I am concerned about the--the budget request, the cut, $270 
million. The reason I am concerned about it is that I have 
become almost obsessed with TSOs and the fact that they are 
woefully, and in my estimation, dangerously underpaid, as I 
mentioned yesterday here at a hearing. They are the only thing 
that stands between most of us who fly airplanes every week and 
terror, and we treat them like they are insignificant.
    So I would--one of the requests that I have of you is that 
you would become the liberator, the agent of change for the TSA 
program. We have got to do something about the pay. I hope 
that, you know, when your--when the sun sets on your time in 
this position, that you can look back, I hope--I really hope, 
and say, I was able to do something with the TSO pay.
    Is that possible? Can you accept that?
    Mr. McAleenan. So, first of all, thank you for your 
comments on how important our Transportation Security Officers 
are to our Nation's aviation security and infrastructure. They 
are valued professionals. I do believe that as a Department, 
across the board, we need to do more to take care of the men 
and women who protect us every day, with retention incentives, 
with support for veterans programs, for suicide prevention, for 
child care, really across the board.
    I am going to be looking at best practices at DHS from each 
agency and seeing what I can do to make them the highest common 
denominator. If there are pay issues that are not commensurate 
with the challenge our people face, I will be happy to assess 
that and come back and work with this committee and others to 
see what we can do.
    Mr. Cleaver. I think you are going to find that it is awful 
and it is ugly and makes us look bad.
    The other issue is there are reports that suggest white 
nationalism is a rising threat around--around the world, 
actually, and also here at home. I hate trying to get into 
politics, but I have to on this one because I can't see another 
way around it. But the President said that he did not see that 
as an issue. When asked the question, said, ``I don't really,'' 
asking if he thought this was a threat.
    Three years ago, my Congressional office in Kansas City was 
firebombed twice. The gentleman has been apprehended. He is now 
serving 10 years in Leavenworth. My father keeps asking, What 
is going to happen when he gets out?
    This is a personal issue, and I don't like to bring my 
personal business out here. But the point is--and I have to 
give--the FBI were amazing in catching the guy.
    But if the President doesn't see this as a threat, and I 
personally know what happened to me, and I have seen and read 
about on the news what has happened around the country, and I 
am not sure that--I am absolutely certain that there are not 
good people on both sides.
    So I would like to know your assessment as the Homeland 
Security Secretary.
    Mr. McAleenan. So our responsibility, Congressman, is to 
address targeted violence, regardless of the motivation or 
ideology. I am concerned about white supremacists/extremists 
and the growing attacks, especially that we have seen on houses 
of worship. That is why I responded right away to the Chairman 
and Ranking Member's challenge to ask the Homeland Security 
Advisory Council to set up a subcommittee to protect faith-
based organizations and houses of worship, and they are going 
to bring a report back that tells us how we can improve our 
prevention efforts in this regard.
    I absolutely agree it is a problem, and we need to work to 
address it, not only at DHS but with our investigative partners 
at the FBI and with State and local.
    Mr. Cleaver. Thank you. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Thompson. I thank the gentleman from Missouri.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions.
    I would like unanimous consent to enter into the record a 
statement from the National Treasury Employees Union.
    Without objection.
    [The information follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                              May 22, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the subcommittee, thank you for the opportunity to submit this 
statement for the record. As president of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 27,000 Customs and Border Protection (CBP) Officers, 
Agriculture Specialists, and Trade Enforcement Personnel stationed at 
328 land, sea, and air ports of entry across the United States and 16 
PreClearance stations currently in Ireland, the Caribbean, Canada, and 
United Arab Emirates airports. CBP's Office of Field Operations (OFO) 
pursues a dual mission of safeguarding American ports, by protecting 
the public from dangerous people and materials, while enhancing the 
Nation's global and economic competitiveness by enabling legitimate 
trade and travel. CBP OFO employees are responsible for border 
security, including anti-terrorism, immigration, anti-smuggling, trade 
compliance, and agriculture protection at U.S. ports of entry.
    In addition to CBP's trade and travel security, processing and 
facilitation mission, CBP OFO employees at the ports of entry are the 
second-largest source of revenue collection for the U.S. Government. In 
2018, CBP processed more than $2.8 trillion in imports and collected 
approximately $44 billion in duties, taxes, and other fees. According 
to CBP on-board staffing data, there is a shortage of approximately 
3,700 CBP Officers at the ports of entry. Yet the administration has 
not included sufficient funding in its fiscal year 2020 budget request 
to address this vast CBP Officer staffing gap.
    OFO is the largest component of CBP responsible for border 
security--including anti-terrorism, immigration, anti-smuggling, trade 
compliance, and agriculture protection--while simultaneously 
facilitating lawful trade and travel at U.S. ports of entry that are 
critical to our Nation's economy. Yet, the President's fiscal year 2020 
budget requests only $28 million to fund the hiring of 171 new Customs 
and Border Protection Officers, 91 Mission and Operational Support 
positions, and 5 Agriculture Specialists. These 267 new OFO employees 
in the President's fiscal year 2020 budget request are designated to go 
to San Luis, AZ, Blaine, Cincinnati, and Boston. CBP's limited OFO 
personnel request is to test a ``Proof of Concept'' that if the OFO 
allocations as determined by its own Workload Staffing Model (WSM) at 
these 4 port of entry are fully met, then these ports should function 
without excessive wait times, overtime or other economic consequences 
of short staffing.
    While I am pleased that the administration included some new 
funding for the hiring of critically-needed CBP Officers, Agriculture 
Specialists, and support staff, the fiscal year 2020 budget request for 
this ``Proof of Concept'' experiment does not by any means meet this 
need. In the post shut-down negotiations earlier this year, the House 
Majority opened with a proposal to fund 1,000 CBP Officer new hires. 
The final fiscal year 2019 agreement provided $58.7 million in funding 
to hire 600 new CBP Officers.
    According to CBP's most recent analytic workload staffing models--
fiscal year 2018 CBP Officer WSM, the fiscal year 2018 Agriculture 
Resource Allocation Model (AgRAM), and the fiscal year 2017 Resource 
Optimization Model (ROM) for Trade Positions--an additional 2,516 CBP 
Officers, 721 Agriculture Specialists, and at least 150 trade 
operations specialists need to be funded and hired in order to meet 
current staffing needs at the U.S. ports of entry.
    CBP employees at the ports of entry are not only the first line of 
defense for illegal trade and travel enforcement, but their role of 
facilitating legal trade and travel is a significant economic driver 
for private-sector jobs and economic growth. According to CBP, for 
every 1,000 CBP Officers hired there is an increase in the Gross 
Domestic Product (GDP) of $2 billion; $642 million in opportunity costs 
are saved (the amount of time that a traveler could be using for 
purposes other than waiting in line, such as working or enjoying 
leisure activities); and 33,148 annual jobs are added. If CBP filled 
the 3,700 needed new positions, the impact could be as high as a $7.4 
billion increase in GDP; a $2.38 billion savings in opportunity costs; 
and the creation of 122,650 new private-sector jobs.
    In addition, according to the Joint Economic Committee (JEC), the 
volume of commerce crossing our borders has more than tripled in the 
past 25 years. Long wait times lead to delays and travel time 
uncertainty, which can increase supply chain and transportation costs. 
According to the Department of Commerce, border delays result in losses 
to output, wages, jobs, and tax revenue due to decreases in spending by 
companies, suppliers, and consumers. JEC research finds border delays 
cost the U.S. economy between $90 million and $5.8 billion each year.
    For these reasons, NTEU asks committee Members to request from the 
House Appropriations Committee up to $120 million in fiscal year 2020 
direct appropriations for the hiring of 600 CBP Officers, 100 CBP 
Agriculture Specialists, and additional needed non-uniformed Trade 
Operations and support staff.
                          cbp officer overtime
    Due to the on-going current staffing shortage of 3,700 CBP 
Officers, CBP Officers Nation-wide are working excessive overtime to 
maintain basic port staffing. Currently, CBP Officer overtime pay is 
funded 100 percent through user fees and is statutorily capped at 
$45,000 per year. All CBP Officers are aware that overtime assignments 
are an aspect of their jobs.
    However, long periods of overtime hours can severely disrupt an 
officer's family life, morale, and ultimately their job performance 
protecting our Nation.
    Because of the on-going staffing shortages, CBP Officers can be 
required to regularly work overtime which results in individual 
Officers hitting the overtime cap very early in the fiscal year. This 
leaves no overtime funding available for peak season travel, resulting 
in critical staffing shortages in the third and fourth quarter of the 
fiscal year that usually coincide with holiday travel at the ports.
    At many ports, CBP has granted overtime exemptions to over one-half 
of the workforce to allow managers to assign overtime to Officers that 
have already reached the statutory overtime cap, but cap waivers only 
force CBP Officers already working long daily shifts to continue 
working these shifts for more days. Officers are required to come in 
hours before their regular shifts, to stay an indeterminate number of 
hours after their shifts (on the same day) and are compelled to come in 
for more overtime hours on their regular days off as well. Both 
involuntary overtime--resulting in 12- to 16-hour shifts, day after 
day, for months on end--and involuntary work assignments far from home, 
significantly disrupt CBP Officers' family life and erode morale. As 
NTEU has repeatedly stated, this is not a long-term solution for 
staffing shortages at the ports and has gone on for far too long.
      temporary duty assignments at southwest land ports of entry
    Due to CBP's on-going staffing shortage, since 2015, CBP has been 
diverting hundreds of CBP Officers from other air, sea, and land ports 
to severely short-staffed Southwest land ports for 90-day Temporary 
Duty Assignments (TDYs).
    CBP recently announced a new round of CBP Officer TDYs to be 
voluntarily reassigned to Border Patrol sectors across the Southwest 
Border. NTEU has learned that in June and July CBP will be deploying a 
total of 731 CBP Officers to designated Border Patrol Sectors to 
replace CBP Officers deployed in April and have reached the end of 
their 60-day TDY deployment. In this latest deployment, 245 Officers 
will be sent from the SW Border Field Offices with the remaining 486 
Officers coming from the other Field Offices.
    This redeployment is making the existing problems at the ports even 
worse and resulting in hours-long delays, since most of the CBP 
Officers being redeployed are from the Nation's most short-staffed land 
ports on our Southern Border.
    If these reassignments continue, they could lead to even more 
extensive staffing shortages at other critical land ports of entry on 
the Southern and Northern Borders, and at international air and 
seaports. Reduced personnel numbers at other ports threatens CBP's 
capacity to carry out critical immigration, trade, and health-related 
inspections and to interdict illegal drug shipments.
    According to a newly-released study, ``The Economic Costs of the 
U.S.-Mexico Slowdown,'' this most recent TDY has resulted in a 
significant slowdown at the U.S.-Mexico border resulting in substantial 
economic harms. Millions of trucks cross the border every year, and 
delays at the border cause logistical problems. The current slowing on 
the U.S.-Mexico border is reducing efficiency and costing the U.S. 
economy billions in output and hundreds of thousands of jobs.
    If the diversion of CBP Officers from the Southwest Border 
international land ports continues, the State of Texas alone could lose 
more than $32 billion in gross domestic product in just over 3 months. 
If there is a one-third reduction in trade between the United States 
and Mexico over a 3-month period, the cost to the U.S. economy would be 
over ``$69 billion in gross product and 620,236 job-years (when 
multiplier effects are considered). Almost half of these losses occur 
in Texas.''
    NTEU urges Congress to require CBP to allocate personnel and 
resources appropriately to ensure timely processing of people at ports 
of entry and better manage the changing demographic flows at our 
Southern Border. To end all of these TDYs, CBP must fill existing CBP 
Officer vacancies and fund the hiring of the additional CBP Officers 
called for in CBP's own WSM. Without addressing the 3,700 CBP Officer 
shortfall, allocating adequate staffing at all ports will remain a 
challenge.
                          opioid interdiction
    CBP OFO is the premier component at the Department of Homeland 
Security (DHS) tasked with stemming the Nation's opioid epidemic--a 
crisis that is getting worse. According to a May 2018 report released 
by the Senate Homeland Security and Governmental Affairs Committee 
Minority titled Combatting the Opioid Epidemic: Intercepting lllicit 
Opioids at Ports of Entry, ``between 2013 and 2017, approximately 
25,405 pounds, or 88 percent of all opioids seized by CBP, were seized 
at ports of entry. The amount of fentanyl seized at the ports of entry 
increased by 159 percent from 459 pounds in 2016 to 1,189 pounds in 
2017.''
    On January 26, 2019, CBP OFO made their biggest fentanyl seizure 
ever, capturing nearly 254 pounds of the deadly synthetic opioid at the 
Nogales port of entry. According to the Drug Enforcement 
Administration, just 2 milligrams of fentanyl is considered a lethal 
dose. From the January 26 seizure alone, it is estimated that CBP 
Officers seized enough fentanyl to kill 57 million people. That's more 
than the combined population of the States of Illinois, New York, and 
Pennsylvania. The street value for the fentanyl was over $102 million. 
CBP Officers also seized an additional 2.2 pounds of fentanyl pills and 
a large cache of methamphetamine.
    The majority of fentanyl is manufactured in other countries such as 
China, and is smuggled primarily through the ports of entry along the 
Southwest Border and through international mail and Private Express 
Carrier Facilities, e.g. FedEx and UPS. Over the past 5 years, CBP has 
seen a nearly 50 percent increase in express consignment shipments from 
76 million to 110 million express bills and a 200 percent increase in 
international mail shipments from approximately 150 million to more 
than 500 million. Yet, according to CBP, over the last 3 years, there 
were only 181 CBP employees assigned to the 5 Postal Service 
International Service Centers and 208 CBP employees assigned to the 
Private Express Carrier Facilities. NTEU's funding request would allow 
for increases in CBP OFO staffing at these facilities.
    Noting the positive impact of hiring additional CBP Officers, it is 
troubling that the President's 2017 Border Security Executive Order and 
his subsequent budget requests did not ask for one additional CBP 
officer new hire. In 2017, CBP Officers at the ports of entry recorded 
over 216,370 apprehensions and seized over 444,000 pounds of illegal 
drugs, and over $96 million in illicit currency, while processing over 
390 million travelers and $2.2 trillion in imports through the ports. 
Imagine what they could do with adequate staffing and resources.
                    agriculture specialist staffing
    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. Agricultural Specialists provide a critical role in 
both trade and travel safety and prevent the introduction of harmful 
exotic plant pests and foreign animal diseases, and potential ag/bio-
terrorism into the United States. All ports of entry are currently 
understaffed relative to mission goals and workload requirements of 
agricultural specialists. For years, NTEU has championed the CBP 
Agriculture Specialists' Agriculture Quality Inspection (AQI) mission 
within the agency and fought for increased staffing to fulfill that 
mission. The U.S. agriculture sector is a crucial component of the 
American economy, generating over $1 trillion in annual economic 
activity. According to the U.S. Department of Agriculture, foreign 
pests and diseases cost the American economy tens of billions of 
dollars annually.
    Because of CBP's key mission to protect the Nation's agriculture 
from pests and disease, NTEU urges the committee to authorize the 
hiring of these 721 CBP Agriculture Specialists identified as 
determined by CBP's AgRAM to address this critical staffing shortage 
that threatens the U.S. agriculture sector.
                     cbp trade operations staffing
    CBP has a dual mission of safeguarding our Nation's borders and 
ports and regulating and facilitating international trade. CBP 
employees at the ports of entry are critical in protecting our Nation's 
economic growth and security. For every dollar invested in CBP trade 
personnel, we return $87 to the U.S. economy, either through lowering 
the costs of trade, ensuring a level playing field for domestic 
industry or by protecting innovative intellectual property. Since CBP 
was established in March 2003, however, there has been no increase in 
non-uniformed CBP trade enforcement and compliance personnel. 
Additionally, CBP trade operations staffing has fallen below the 
statutory floor set forth in the Homeland Security Act of 2002 and 
stipulated in the fiscal year 2017 CBP Resource Optimization Model for 
Trade Positions. NTEU strongly supports CBP funding 140 new hires at 
the CBP Office of Trade through direct appropriations to support TFTEA 
implementation.
                          cbp funding sources
    CBP collects Customs User Fees (CUFs), including those under the 
Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA), to 
recover certain costs incurred for processing air and sea passengers 
and various private and commercial land, sea, air, and rail carriers 
and shipments. The source of these user fees are commercial vessels, 
commercial vehicles, rail cars, private aircraft, private vessels, air 
passengers, sea passengers, cruise vessel passengers, dutiable mail, 
customs brokers, and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100 percent of inspectional overtime for passenger and commercial 
vehicle inspection during overtime shift hours. Of the 24,576 CBP 
Officers currently funded, Customs User Fees (CUFs) fund 3,825 full-
time equivalent (FTEs) CBP Officers. Further, Immigration Inspection 
User Fees (IUF) fund 4,179 CBPO FTEs. CUF and IUF user fees fund 8,004 
CBPO FTEs or one-third of the entire CBP workforce at the ports of 
entry.
    NTEU strongly opposes the diversion of CUFs. Any increases to the 
CUF Account should be properly used for much-needed CBP staffing and 
not diverted to unrelated projects. Unfortunately, while section 52202 
of the FAST ACT indexed CUFs to inflation, it diverted this funding 
from CBP to pay for unrelated infrastructure projects. Indexing COBRA 
CUFs to inflation would have raised $1.4 billion over 10 years--a 
potential $140 million per year funding stream to help pay for the 
hiring of additional CBP Officers to perform CBP's border security, law 
enforcement, and trade and travel facilitation missions. Diverting 
these funds has cost CBP funding to hire over 900 new CBP Officers per 
year since the FAST Act went into effect. These new hires would have 
significantly alleviated the current CBP Officer staffing shortage.
    In order to find alternative sources of funding to address serious 
staffing shortages, CBP received authorization for and has entered into 
Reimbursable Service Agreements (RSAs) with the private sector, as well 
as with State and local governmental entities. These stakeholders, who 
are already paying CUFs and IUFs for CBP OFO employee positions and 
overtime, reimburse CBP for additional inspection services, including 
overtime pay and the hiring of new CBP Officer and Agriculture 
Specialist personnel that in the past have been paid for entirely by 
user fees or appropriated funding. According to CBP, since the program 
began in 2013, CBP has entered into agreements with over 149 
stakeholders covering 111 U.S. ports of entry, providing more than 
467,000 additional processing hours for incoming commercial and cargo 
traffic.
    NTEU believes that the RSA program is a Band-Aid approach and 
cannot replace the need for Congress to either appropriate new funding 
or authorize an increase in customs and immigration user fees to 
adequately address CBP staffing needs at the ports.
    RSAs simply cannot replace the need for an increase in CBP 
appropriated or user fee funding--and make CBP a ``pay to play'' 
agency. NTEU also remains concerned with CBP's new PreClearance 
expansion program that also relies heavily on ``pay to play.'' Further, 
NTEU believes that the use of RSAs to fund CBP staffing shortages 
raises significant equity issues between larger and/or wealthier ports 
and smaller ports.
                          nteu recommendations
    To address CBP's workforce challenges, it is clearly in the 
Nation's economic and security interest for Congress to authorize and 
fund an increase in the number of CBP Officers, CBP Agriculture 
Specialists, and other CBP employees.
    In order to achieve the long-term goal of securing the proper 
staffing at CBP and end disruptive TDYs and excessive involuntary 
overtime shifts, NTEU recommends that Congress take the following 
actions:
  <bullet> Support funding for 600 new CBP Officers in fiscal year 2020 
        DHS Appropriations;
  <bullet> Support funding for 721 new CBP Agriculture Specialists 
        hires; and
  <bullet> Fully fund and utilize recruitment, relocation, and 
        retention incentives.
    Congress should also redirect the increase in customs user fees in 
the FAST Act from offsetting transportation spending to its original 
purpose of providing funding for CBP Officer staffing and overtime, and 
oppose any legislation to divert additional fees collected to other 
uses or projects.
    Shutdowns, pay freezes, and proposed cuts to benefits, rights, and 
protections do nothing to help with recruitment and retention of CBP 
Officers. The employees I represent are frustrated and their morale is 
indeed low. These employees work hard and care deeply about their jobs 
and their country. These men and women are deserving of more staffing 
and resources to perform their jobs better and more efficiently.
    NTEU is not alone in seeking increased funding to hire new CBP 
Officers at the ports. A diverse group of business, industry, and union 
leaders have joined forces in support of legislation and funding to 
hire more Customs and Border Protection personnel and alleviate 
staffing shortages at the Nation's ports of entry. The coalition--which 
includes leading voices from various shipping, tourism, travel, trade, 
law enforcement, and employee groups--sent the attached letter urging 
House appropriators to provide the funding necessary to hire at least 
600 new CBP officers annually (see Exhibit A.)
    Thank you for the opportunity to submit NTEU's statement for the 
record.

    Mr. Rogers. Mr. Chairman----
    Chairman Thompson. Ranking Member.
    Mr. Rogers. I mentioned earlier trying to get an amendment 
on the President's budget adopted, and it was denied. I would 
like to put a copy of that in the record, without objection.
    Chairman Thompson. Without objection.
    [The information follows:]
      Letter From Russell T. Vought to Honorable Michael R. Pence
                                       May 1, 2019.
The Honorable Michael R. Pence,
President of the Senate, U.S. Senate, Washington, DC 20510.
    Dear Mr. President: We are continuing to experience a humanitarian 
and security crisis at the southern border of the United States. 
Apprehensions are expected to surpass one million by the end of the 
year, more than doubling those compared to last year. The number of 
large-scale groups of family units and unaccompanied alien children 
(UAC), primarily from El Salvador, Guatemala, and Honduras, seeking to 
enter the country and claim asylum has increased dramatically.
    The situation becomes more dire each day. The migration flow and 
the resulting humanitarian crisis is rapidly overwhelming the ability 
of the Federal Government to respond. Only halfway through this fiscal 
year (FY), the U.S. Border Patrol has apprehended more than 360,000 
migrants. This is over 187,000 more than during the same period in 
fiscal year 2018, and just 35,500 below the number apprehended for all 
of fiscal year 2018.
    The demographics of migrants arriving at our border has changed 
dramatically, from single adult males to family units and UAC. This 
year, over 52 percent of apprehensions have been migrant families. The 
number of UAC referred to the Department of Health and Human Services 
(HHS) has increased by almost 50 percent over last year. This shift in 
demographics has stressed a system mainly designed for single adults. 
These increased flows are exacerbated by Mexico's inability and 
unwillingness to curb the illegal migration flow through its own 
Southern Border. In addition, the speed with which illegal migrants 
transited through Mexico to reach the United States continues to 
challenge America's best efforts to keep pace with the overwhelming 
numbers of migrants arriving at the Southern Border. The historic 
influx of families and UAC is challenging the capacity of the Federal 
Government to shelter, care for and protect those we encounter, and 
presents child welfare concerns beyond the treacherous journey that 
these vulnerable migrants undertake to reach our Southern Border.
    In February, U.S. Customs and Border Protection (CBP) encountered 
more than 76,000 illegal border crossers and inadmissible aliens, and 
in March that number exceeded 100,000--the highest monthly level in 
more than a decade. Despite heroic efforts, the United States 
Government's ability to humanely and compassionately care for 
vulnerable populations and to expeditiously process and detain those 
who should not be admitted is stressed to the breaking point. Alarming 
numbers of UAC and families are crowded into U.S. Border Patrol 
stations that were never intended to be long-term shelters. U.S. Border 
Patrol personnel no longer have the ability to identify, process, and 
transport all of those apprehended at the border to safe and secure 
facilities designed to house them, but have instead been increasingly 
pressed into providing critical humanitarian, medical, and 
transportation services for this population.
    Additionally, immediate emergency action is required to ensure that 
the Federal Government can provide the infrastructure and personnel 
required to safely, securely, and humanely process and care for this 
at-risk migrant population. At the direction of the President, and 
under available authorities, numerous Federal agencies are coordinating 
and contributing resources and personnel in response to the 
overwhelming humanitarian crisis at the United States Southern Border. 
As the situation continues to unfold and escalate, the administration 
believes additional Federal resources are necessary to sustain critical 
and life-safety missions.
    At this time, the administration requests an appropriation of $4.5. 
billion in emergency funding to respond to the humanitarian and 
security crisis at the Southern Border of the United States. This 
amount includes $3.3 billion for humanitarian assistance, $1.1 billion 
for border operations, and $178 million for mission support.
    The humanitarian assistance request includes $2.8 billion for HHS 
to ensure that its Office of Refugee Resettlement (ORR) is able to 
provide all UAC with critical child welfare services and high-quality 
shelter care, in accordance with programmatic and legal requirements. 
The funding will enable ORR to increase shelter capacity to 
approximately 23,600 total beds in order to accommodate the high number 
of UAC anticipated to be referred to ORR through the remainder of the 
fiscal year. Given that current referral trends are likely to continue 
into next fiscal year, this amount also provides ORR the ability to 
maintain a high bed capacity through December.
    There is a significant likelihood that the UAC program will exhaust 
all of its resources in June. If Congress fails to provide HHS this 
additional funding, the expected continuation of current trends may 
require HHS to divert significant resources from other programs that 
serve vulnerable populations--such as refugees and victims of 
trafficking and torture. In addition, UAC services that are not 
necessary for protection of human life, such as education and legal 
services, as well as recreational activities, would likely need to be 
canceled or scaled back. Should reallocated funds be exhausted, it is 
highly unlikely that HHS would be able to acquire the additional 
shelter capacity it would likely need to continue to accept UAC 
referrals from DHS in a timely manner, meaning that children would 
likely stay in DHS facilities for longer than 72 hours following a 
determination that the child is a UAC. In the worst-case scenario, 
thousands of children might remain for lengthy periods of time in 
facilities that were never intended to be long-term shelters, rather 
than being expeditiously transferred to HHS custody, where they would 
receive case management and other services that address their unique 
needs.
    The request also includes $1.1 billion for the Department of 
Homeland Security. It would provide $391 million for humanitarian 
assistance, including for temporary, semi-permanent, and permanent 
migrant processing facilities at the Southern Border where families and 
UAC will receive timely and appropriate medical attention, food, and 
temporary shelter before being transferred to other residential 
locations; $530 million for border operations, including surged 
personnel expenses, as well as increased transportation and detainee 
housing and processing capacity; and $178 million for operations and 
support costs, including pay and retention incentives for critical 
operational personnel, and for information technology (IT) support and 
upgrades to improve the performance of and help alleviate stress on 
overtaxed IT systems.
    The request also includes $377 million for the Department of 
Defense, National Guard for Operation Guardian Support and for active 
components to provide logistical and administrative, aerial 
surveillance and other border-related intelligence support to CBP. 
Finally, the amount includes $155 million for Federal Prisoner 
Detention at the Department of Justice to accommodate significant 
increases in detained populations, including criminal aliens.
    The additional resources hereby requested will enable Federal 
agencies to address the immediate humanitarian and security crisis at 
the Southern Border of the United States. Because the need for this 
funding arises from an unprecedented rise in the numbers and 
composition of the migrant population, consisting largely of families 
and UAC, these resources should be provided as emergency funding.
    Further, during his April visit to the our Southern Border, the 
President emphasized that he is anxious to work with the Congress to 
close loopholes in the United States immigration system and secure 
meaningful asylum reform, without which border security will 
deteriorate and immigration enforcement costs will soar. Overall, 
President Trump is committed to working with the Congress to enact 
legislation that will give our Nation a secure, coherent, rational, and 
merit-based immigration system.
    Thank you for your consideration of these funding needs. I urge the 
Congress to take swift action to provide the additional funding 
requested to address the humanitarian and border security crisis at the 
United States Southern Border; I also urge the Congress to complete its 
work to provide supplemental funding for disaster recovery to get those 
affected regions and military installations the support they need to 
rebuild. I stand ready to work with you to achieve these goals.
            Sincerely,
                                         Russell T. Vought,
                                                   Acting Director.
Identical Letter Sent to: The Honorable Michael R. Pence, The Honorable 
Nancy Pelosi, The Honorable Mitch McConnell, The Honorable Charles E. 
Schumer, The Honorable Kevin McCarthy, The Honorable Richard C. Shelby, 
The Honorable Nita Lowey, The Honorable Patrick J. Leahy, The Honorable 
Kay Granger.

    Mr. Rogers. Thank you.
    Chairman Thompson. The other thing I would like to indicate 
is, on the Flores decision, it was about prolonged detention of 
children had proven to be harmful to their health. The judge 
looked at that as the overriding factor as to why they shorten 
the time for detention. So I think the court looked at it from 
that perspective rather than a punitive decision on the 
Department, because we are concerned about the care of children 
who are in detention.
    The Members of the committee may have additional questions 
for the witness, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Chairman Bennie G. Thompson for Kevin K. McAleenan
    Question 1a. Last month, President Trump tweeted that Congress has 
given Puerto Rico $91 billion for its recovery from Hurricane Maria. Is 
that figure concrete?
    Question 1b. If not, what efforts, if any, have you made to correct 
the President's understanding?
    Answer. Response was not received at the time of publication.
   Question From Honorable Sheila Jackson Lee for Kevin K. McAleenan
    Question. You testified that DHS has internal task forces in place 
to review the deaths of children in CBP custody.
    What are the names and titles of the individuals who serve on these 
task forces? Please provide a copy of any recommendations made by these 
tasks forces and the status of their implementation.
    Answer. Response was not received at the time of publication.
  Question From Honorable Nanette Diaz Barragan for Kevin K. McAleenan
    Question. Please provide the committee with a copy of any written 
policies regarding the Migrant Protection Protocols (MPP).
    Answer. Response was not received at the time of publication.
    Questions From Honorable Kathleen M. Rice for Kevin K. McAleenan
    Question 1a. To date, how many DHS employees have voluntarily 
deployed to the U.S.-Mexico border in support of CBP? Please provide a 
breakdown by component.
    Answer. Response was not received at the time of publication.
    Question 1b. How many of these employees have been trained to work 
with migrant children and families? Please provide a copy of the lesson 
plan and any training documents issued to the employees.
    Answer. Response was not received at the time of publication.
      Questions From Honorable Clay Higgins for Kevin K. McAleenan
    Question 1a. Secretary McAleenan, you testified that DHS has 
uncovered 3,500 cases of adults posing as parents or legal guardians of 
children who were in fact, not. We have been briefed in the past that 
these discoveries are usually a result of interviews conducted by 
trained CBP Agents. Others have been the result of investigations into 
fraudulent documents such as birth certificates. It is clear that CBP 
has only a limited ability to determine if people are legitimately 
parents or legal guardians of the children they are bringing to the 
Southwest Border.
    Can you speak to the challenges CBP Agents experience when 
attempting to determine whether those presenting as families are in 
fact families and that the children are not victims of human smuggling 
or trafficking? How will the use of DNA testing help CBP protect these 
children from harm at the hands of traffickers and smugglers?
    Answer. Response was not received at the time of publication.
    Question 1b. Would the deployment of such DNA testing technology at 
all Border Patrol facilities act as a deterrent and be a distinguishing 
factor in the determination of whether an adult attempting unauthorized 
entry into the United States is in fact the parent of a child or 
children they are claiming to be?
    Answer. Response was not received at the time of publication.
    Question 1c. Are there any additional authorities needed to help 
DHS address this issue?
    Answer. Response was not received at the time of publication.
    Question 1d. What other tools or resources does DHS need to address 
the fraudulent family concern at our Southwest Border?
    Answer. Response was not received at the time of publication.
    Question 2. Secretary McAleenan, border security interagency task 
forces are a crucial part of ensuring that the homeland is secure.
    Can you explain to the committee the importance of the Integrated 
Border Enforcement Teams, the Border Tunnel Task Forces, and the Best 
Enforcement Security Teams in working with State, local, Tribal, 
foreign, and other agency partners to secure the homeland? Please 
provide any related enforcement statistics available.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
